<html>
<title> - DRUGS AND SECURITY IN A POST-SEPTEMBER 11 WORLD: COORDINATING THE COUNTERNARCOTICS MISSION AT THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





   DRUGS AND SECURITY IN A POST-SEPTEMBER 11 WORLD: COORDINATING THE 
    COUNTERNARCOTICS MISSION AT THE DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                             JOINT HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                                and the

                     SUBCOMMITTEE ON INFRASTRUCTURE
                          AND BORDER SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 22, 2004

                               __________

                           Serial No. 108-285

                     Committee on Government Reform

                           Serial No. 108-54

                     Committee on Homeland Security

                               __________

Printed for the use of the Committees on Government Reform and Homeland 
                                Security


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
99-655                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
JOHN R. CARTER, Texas                    Maryland
MARSHA BLACKBURN, Tennessee          ELEANOR HOLMES NORTON, District of 
PATRICK J. TIBERI, Ohio                  Columbia
                                     BETTY McCOLLUM, Minnesota

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
        Nicholas Coleman, Professional Staff Member and Counsel
                           Malia Holst, Clerk
                     Tony Haywood, Minority Counsel
                 SELECT COMMITTEE ON HOMELAND SECURITY

                 Christopher Cox, California, Chairman
Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, MississPpi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
    Wisconsin                        Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York              York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                      Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona                 Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas                 VACANCY
John E. Sweeney, New York
                      John Gannon, Chief of Staff
       Stephen DeVine, Deputy Staff Director and General Counsel
            ThomasDilenge, Chief Counsel and Policy Director
               David H. Schanzer, Democrat Staff Director
             Mark T. Magee, Democrat Deputy Staff Director
                    Michael S. Twinchek, Chief Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 22, 2004....................................     1
Statement of:
    Bonner, Robert, Commissioner, U.S. Customs and Border 
      Protection, Department of Homeland Security; Admiral Thomas 
      H. Collins, Commandant, U.S. Coast Guard, Department of 
      Homeland Security; Michael J. Garcia, Assistant Secretary, 
      U.S. Immigration and Customs Enforcement, Department of 
      Homeland Security; and Roger Mackin, Counternarcotics 
      Officer, Department of Homeland Security...................    15
Letters, statements, etc., submitted for the record by:
    Barton, Hon. Joe, a Representative in Congress from the State 
      of Texas, prepared statement of............................    99
    Bonner, Robert, Commissioner, U.S. Customs and Border 
      Protection, Department of Homeland Security, prepared 
      statement of...............................................    18
    Camp, Hon. Dave, a Representative in Congress from the State 
      of Michigan, prepared statement of.........................    13
    Collins, Admiral Thomas H., Commandant, U.S. Coast Guard, 
      Department of Homeland Security, prepared statement of.....    28
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    10
    Garcia, Michael J., Assistant Secretary, U.S. Immigration and 
      Customs Enforcement, Department of Homeland Security, 
      prepared statement of......................................    38
    Jackson-Lee, Hon. Sheila, a Representative in Congress from 
      the State of Texas, prepared statement of..................    82
    Mackin, Roger, Counternarcotics Officer, Department of 
      Homeland Security, prepared statement of...................    51
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Turner, Hon. Michael R., a Representative in Congress from 
      the State of Ohio, prepared statement of...................    97

 
   DRUGS AND SECURITY IN A POST-SEPTEMBER 11 WORLD: COORDINATING THE 
    COUNTERNARCOTICS MISSION AT THE DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                        THURSDAY, JULY 22, 2004

        House of Representatives, Subcommittee on Criminal 
            Justice, Drug Policy and Human Resources, 
            Committee on Government Reform, joint with the 
            Subcommittee on Infrastructure and Border 
            Security, Select Committee on Homeland 
            Security,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 2:12 p.m., in 
room 2247, Rayburn House Office Building, Hon. Mark Souder 
(chairman of the Subcommittee on Criminal Justice, Drug Policy 
and Human Resources) presiding.
    Present: Representatives Souder, Dunn, Cummings, Sanchez, 
Norton, Camp, Christensen, and Jackson-Lee.
    Staff present from the Subcommittee on Criminal Justice, 
Drug Policy and Human Resources: J. Marc Wheat, staff director 
and chief counsel; Nicholas Coleman, professional staff member 
and counsel; David Thomasson, congressional fellow; Malia 
Hotst, clerk; Tony Haywood, minority counsel; and Teresa 
Coufal, minority assistant clerk.
    Staff present from the Subcommittee on Infrastructure and 
Border Security: Mandy Bowers, policy coordinator; Patricia 
DeMarco, counsel; Winsome Packer and Chau Donovan, professional 
staff members; Joseph Windrem, deputy clerk; Allen Thompson, 
minority professional staff member; and Sue Ramanathan, 
minority professional staff member and counsel.
    Mr. Souder. Good afternoon. Today's hearing addresses a 
vitally important topic for Congress and the Nation, the 
counternarcotics mission at the Department of Homeland 
Security. Specifically, we are here to discuss how well the 
Department is fulfilling its counternarcotics mission, what 
level of material and personnel support it is providing to 
anti-drug operations, and what steps it is taking to improve 
coordination and cooperation between its own counternarcotics 
agencies. I would first like to thank Chairman Dave Camp, of 
the Select Committee on Homeland Security's Subcommittee on 
Infrastructure and Border Security, for agreeing to hold this 
as a joint hearing between our two subcommittees. I sit on 
Chairman Camp's subcommittee, and I have appreciated the strong 
leadership he has provided on border security and drug 
interdiction issues.
    In the aftermath of September 11, we have focused special 
attention on preventing and responding terrorists attacks on 
our country, and rightly so. We should never forget the 
terrible toll that drug abuse continues to take on America as 
well. According to the Centers for Disease Control, every year 
about 20,000 American lives are lost as a direct consequence of 
illegal drug use. The Office of National Drug Control Policy 
estimates that the annual economic cost of drug abuse to the 
United States--in lost productivity, health care costs, and 
wasted lives--is now well over the $150 billion mark.
    The Department of Homeland Security is an absolutely 
crucial player in our efforts to reduce this terrible scourge. 
When Congress created the Department in 2002, it combined some 
of the most important anti-drug trafficking agencies in the 
Federal Government, including the U.S. Coast Guard, the Border 
Patrol, and the former Customs Service. Although there are 
certainly other Federal agencies with a vital role in our fight 
against drug trafficking, DHS is largely responsible for 
manning the ``front lines'' in this mission. The Customs 
inspectors and Border Patrol agents at U.S. Customs and Border 
Protection [CBP]; the special agent investigators and the Air 
and Marine personnel at U.S. Immigration and Customs 
Enforcement [ICE], and the Coast Guard personnel patrolling the 
waters, represent our Nation's first line of defense against 
the drug traffickers.
    To ensure that these agencies would not neglect their 
counternarcotics role in the new Department, Congress 
specifically provided that the primary mission of DHS included 
the responsibility to ``monitor connections between illegal 
drug trafficking and terrorism, coordinate efforts to sever 
such connections, and otherwise contribute to efforts to 
interdict illegal drug trafficking.'' In accordance with this 
congressional mandate, the men and women of these agencies have 
worked hard to fulfill their counternarcotics roles. And there 
is clear evidence that the Bush administration's overall anti-
drug strategy, including rigorous interdiction and enforcement, 
as well as treatment and prevention strategies, is working. 
Drug use, particularly among young people, is on the decline 
again after rising significantly during the 1990's.
    Several issues have arisen, however, that need to be 
addressed to ensure that DHS remains on track in the struggle 
against drug trafficking. In particular, Congress and the 
administration need to work together to ensure that the 
structures and procedures at the new Department reflect the 
importance of counternarcotics. No one doubts that the 
individuals currently serving at the Department have a strong 
personnel commitment to stopping drug trafficking. Indeed, two 
of its top officials, Under Secretary Asa Hutchinson and 
Commissioner Robert Bonner, who is testifying here today, are 
both former Administrators of DEA, the Drug Enforcement 
Administration. But we need to make sure that, over the long 
term, the Department is institutionally committed to drug 
interdiction. There are at least three major problems that I 
believe need to be resolved.
    First, the status and responsibilities of the 
Counternarcotics Officer at DHS need to be better defined. 
Congress created this position in 2002, directing the 
Counternarcotics Officer to assist the Secretary to coordinate 
policy and operations within the Department with respect to 
drug interdiction; to track and sever connections between 
illegal drug trafficking and terrorism; and to ensure the 
adequacy of resources within the Department for drug 
interdiction. Regrettably, the current statutory provision does 
not clearly define how this Officer is to fulfill those duties, 
nor does it give him adequate status or resources to fulfill 
them. Raising the profile of the Counternarcotics Officer, and 
assigning specific responsibilities and permanent staff to him, 
would go a long way toward rectifying this problem.
    Second, the new personnel management systems being 
developed by the Department may not be giving sufficient 
attention to key missions, including stopping drug trafficking. 
In February 2004, DHS and the Office of Personnel Management 
issued draft regulations for a new personnel management system 
for most of the Department employees. The regulations, which 
would govern employee performance review as well as pay scales, 
are quite extensive and detailed, occupying nearly forty pages 
of the Federal Register. A computer word search, however, 
revealed that the words, ``drugs,'' ``narcotics,'' and 
``interdiction'' were not even mentioned once, even in the 
discussion of the DHS mission. The Department's personnel 
management system must, of course, be flexible and take into 
account not only differences in agency cultures, but also 
differences in locations and roles. At a minimum, however, DHS 
should include criteria related to counternarcotics activity in 
its employee appraisal system for relevant enforcement 
personnel.
    Finally, it is clear that more work needs to be done 
improving the level of communication, coordination, and 
cooperation between the various agencies within DHS on 
counternarcotics work. For example, at present there are three 
entities within DHS that have substantial air and/or marine 
operations--the Coast Guard, the Office of Air and Marine 
Operations [AMO] at ICE, and the Border Patrol. These three 
entities, however, do not communicate with each other on a 
systematic basis about their flights or marine operations, even 
when they overlap with respect to mission and to geographic 
area. This has created a significant problem of duplication of 
effort and a safety issue for the pilots and the boat operators 
involved. Additional issues of intelligence sharing, 
coordinated investigations, and operation deconfliction must 
also be addressed if DHS is to maximize its effectiveness 
against the drug cartels.
    This hearing will give us an opportunity to examine these 
problems and their potential solutions. Again, I thank Chairman 
Camp for agreeing to co-host this hearing, and for the 
assistance that he and his staff provided us in preparing for 
it. I would also like to thank our four witnesses, who are 
responsible for implementing DHS counternarcotics policies, for 
taking the time out of their busy schedules to join us here 
today. We welcome Commissioner Robert Bonner, head of U.S. 
Customs and Border Patrol; Admiral Thomas Collins, Commandant 
of the U.S. Coast Guard; Assistant Secretary Michael Garcia, 
head of the U.S. Immigration and Customs Enforcement; and Mr. 
Roger Mackin, the Counternarcotics Officer at DHS. I thank 
everyone for coming, and I look forward to your testimony.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T9655.001
    
    [GRAPHIC] [TIFF OMITTED] T9655.002
    
    [GRAPHIC] [TIFF OMITTED] T9655.003
    
    [GRAPHIC] [TIFF OMITTED] T9655.004
    
    Mr. Souder. I now yield to Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman, and I am 
certainly pleased to join you and our colleagues from the 
Government Reform Subcommittee on Criminal Justice, Drug Policy 
and Human Resources and the Homeland Security Subcommittee on 
Infrastructure and Border Protection in welcoming our 
distinguished panel of witnesses from the Department of 
Homeland Security.
    I thank all of you gentlemen for what you do everyday to 
make our Nation a safer place to live, and to help us fulfill 
our vision of what this Nation ought to be, as a matter of 
fact, what the world ought to be like, and the employees that 
you oversee who work diligently every day to protect Americans 
from a multitude of safety and security threats. We appreciate 
their service to our Nation and I know we all welcome this 
opportunity to hear their perspectives on how DHS agencies are 
succeeding in fighting a coordinated, effective war on drugs 
and what can be done to build on the successes that have been 
achieved in this area.
    The terrorist attacks on September 11, 2001, had a profound 
impact on all Americans. The harm inflicted on America that 
dreadful day cannot be quantified by the death toll from the 
World Trade Center and the Pentagon or by any other narrow, 
numerical measure. America was changed that day and we continue 
to this day to struggle in our efforts to adapt to a post-
September 11 world in which Americans are constantly reminded 
of the threat of future terrorist attacks.
    Less visible, less dramatic, and less shocking to the 
national conscience, but equally profound, however, is the toll 
inflicted everyday upon American cities and towns by the 
consumption of harmful illegal drugs and by the collateral 
social and economic consequences of the drug trade. I have 
often said about the neighborhood that I live in in the inner-
city of Baltimore that we have terrorists standing on our 
corners and they are fueled by drugs.
    As Chairman Souder has stated, illegal drug consumption 
claims 20,000 American lives each year. Thousands more 
Americans go to jail or prison for drug-related crimes, or 
become a victim of drug-related violence or property crime. In 
my own city of Baltimore, it is not unusual for us to have 
upwards near 300 deaths by gun, and there would be even more if 
we did not have one of the greatest shock trauma units in the 
world. And so I am very familiar with what the chairman is 
talking about. And by the way, most of those deaths that I 
talked about and those injuries that ended up being taken care 
of at our shock trauma unit are drug-related, somewhere between 
80 and 85 percent. An estimated $150 billion in economic 
productivity is lost annually due to drugs. And yet these 
statistics do not begin to capture the concentrated, cumulative 
impact on the quality of life, and the quality of life 
prospects for Americans trapped in neighborhoods crippled by 
addiction, poverty, and the range of related social ills.
    Our response to September 11 was to take the fight to the 
terrorists militarily and to take steps to insulate our people 
and infrastructure from threats to our national security at 
home. The latter involved creating a new cabinet-level 
department out of existing agencies with wide-ranging 
functions. Three key border agencies whose functions and assets 
were transferred to the Department of Homeland Security had 
long supplied the majority of our front-line soldiers in the 
war on drugs. This was only natural given that drugs and 
various means of inflicting terror enter by the same means--
across our borders and through ports of entry around this 
country.
    At the same time, the September 11 attacks gave rise to a 
heightened recognition of the extent to which drug proceeds are 
the lifeblood of criminal and terrorist organizations that 
threaten U.S. security. This recognition is reflected in the 
Homeland Security Department's mission statement, codified in 
the authorizing statute, which directs the Secretary to explore 
links between terrorists and drug trafficking organizations and 
other pursue drug interdiction.
    The drugs and terror nexus is a compelling reason to 
address the drug threat, but as I have noted, drugs represent a 
substantial and constant threat to the Nation's security on 
their own. Chairman Souder and I have shared this view that we 
must be wary of allowing the threat of singular catastrophic 
events to detract from efforts to stop the daily onslaught of 
illegal drugs that gradually and quietly turn lives to waste 
and communities into war zones.
    That is why I was happy in joining Chairman Souder in 
sponsoring a provision in the Homeland Security Act of 2002 
that created within the Department of Homeland Security the 
position of Counternarcotics Officer, or CNO. It is was our 
purpose in proposing the CNO provision to create a high level 
position within DHS that would maintain a high profile and 
priority for counternarcotics missions and ensure that DHS drug 
interdiction, investigation, and enforcement efforts would 
definitely be coordinated with each other and with those of 
other Federal agencies so as to maximize the efficiency and 
effectiveness of the combined effort.
    Two years later, the Homeland Security Department is up and 
running. Today provides us with a valuable opportunity to 
evaluate how the Department's drug mission is being 
coordinated. The subcommittees have questions related to the 
effectiveness of the Counternarcotics Officer position and 
whether it ought to be augmented to achieve the effect we 
intended, whether DHS assets that contribute to interdiction 
missions are allocated optimally within the Department, and 
whether the emphasis on preventing catastrophic acts of 
terrorism is preventing DHS from obtaining intelligence that 
could make drug interdiction efforts more effective.
    Finally, Commissioner Bonner, Assistant Secretary Garcia, 
Admiral Collins, and Mr. Mackin are well positioned to provide 
an informed perspective on these particular issues, and more 
generally on what more can and should be done to ensure that 
the war on drugs and the war on terrorism both can be fought 
with maximum vigor, efficiency, and effectiveness.
    I look forward to your testimony, and I want to thank you, 
Mr. Chairman, for your vigilance in trying to constantly make 
sure that we have a balance as we fight the war on terror but 
making sure that we take care of home too.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T9655.005

[GRAPHIC] [TIFF OMITTED] T9655.006

    Mr. Souder. Thank you. I would now like to yield to 
Chairman Camp, and I again thank him for his leadership in 
these areas.
    Mr. Camp. Thank you, Mr. Chairman. I want to thank our 
witnesses for being here. We have a distinguished panel. And in 
an effort to move things along, I will just give a brief 
statement and put my full statement in the record.
    Obviously, the purpose of today's joint hearing is to 
examine the level of cooperation and coordination with the 
Department of Homeland Security as it relates to the 
counternarcotics mission. The Subcommittee on Infrastructure 
and Border Security has held eight hearings looking into the 
ability of the various agencies within DHS to conduct effective 
border security, with the focus being preventing terrorists and 
terrorist weapons from entering the United States. And while 
terrorism will remain one of the most significant threats to 
the United States for the foreseeable future, drug trafficking 
and the use of illicit drugs continues to plague American 
society.
    This hearing is an important opportunity for Congress to 
stress that while striving to protect the United States from 
terrorists, DHS must maintain the ability of the legacy 
agencies to accomplish traditional missions. The counter-drug 
mission is especially important as the assets and tools used by 
DHS personnel for counter-terrorism are generally the same as 
those used for counternarcotics. The allocation of resources, 
the policy direction, and the training cannot sacrifice one 
mission for another. When Inspectors at a point of entry search 
a container, or Border Patrol agents track smugglers, or a 
Coast Guard cutter intercepts a fast boat, they generally do 
not know if they are going to find illegal aliens, drugs, 
weapons of mass destruction, or some other type of contraband. 
All DHS personnel with inspection, enforcement, and 
investigative responsibilities must have the skills, resources, 
and support necessary to effectively meet all of their 
responsibilities.
    I look forward to hearing from our witnesses on how DHS is 
accomplishing these crucial challenges, any recommendations for 
improvement, and, most importantly, how the counternarcotics 
mission is, and will continue to be, a priority for the 
Department. I want to thank you for being here today, and look 
forward to your testimony. Thank you.
    [The prepared statement of Hon. Dave Camp follows:]

    [GRAPHIC] [TIFF OMITTED] T9655.007
    
    Mr. Souder. Thank you. Ms. Sanchez, do you have any opening 
statement?
    Ms. Sanchez. I do, and I will try to make my opening 
statement brief as well. I want to thank the chairman and the 
ranking member for calling this important hearing today. Too 
many of our communities in the United States are plagued with 
drugs and the social ills that come with narcotics use. Drug 
trafficking in our country continues to take a terrible toll in 
America. According to the Centers for Disease Control, every 
year about 200,000 American lives are lost as a direct 
consequence of illegal drugs.
    I am very much looking forward to hearing from the 
witnesses who will hopefully shed some light on how effectively 
counternarcotics goals are being pursued under the new Homeland 
Security Bureau. I am particularly interested in knowing what 
has been the impact of the reorganization on the 
counternarcotics mission as measured by drug seizures and 
arrests; to what extent do DHS agencies perceive or approach 
the counter-drug and counter-terrorism missions as competing or 
complimentary; and how well do all of the DHS components 
communicate and coordinate activities within agencies. This is 
especially important to me because I keep hearing that 
coordination and communication problems in some instances are 
keeping DHS personnel from doing their jobs effectively and 
efficiently.
    Last, I would just like to point out to Commissioner Bonner 
that there are several outstanding meeting requests from 
Members of Congress on a number of DHS issues, and my 
colleagues and I want to bring your immediate attention to 
those requests. I am hopeful that in the future you will take 
the time to make yourself more accessible to Members of 
Congress.
    Again, I look forward to the testimony, and I thank the 
chairman.
    Mr. Souder. I thank the distinguished Member both of this 
subcommittee and as ranking member of the Border Subcommittee 
for her active participation in both.
    We are also joined by the Vice-Chairman of the full 
committee. Congresswoman Dunn, do you have any opening 
statement?
    Ms. Dunn. Thank you very much, Mr. Chairman. I have no 
opening statement. I want to thank you gentlemen for appearing 
before us today and I am hopeful that you can create a 
perspective that will let us know whether we are doing enough 
for you, if we should shift our emphasis, just how we can be 
more useful in solving some of these problems. Thank you.
    Mr. Souder. Thank you. Ms. Norton, do you have any opening 
statement?
    Ms. Norton. Yes, Mr. Chairman. I appreciate this hearing, 
the joint hearing because what it does is to emphasize a fact 
that perhaps was not as much the case before September 11, and 
that is that the narcotics trade and national security are now 
indelibly linked. There is no way to think about one without 
the other when you consider what we have learned in our own 
committee hearings in this subcommittee on the increasing 
funding of terrorism from narcotics. If anything, this gives an 
escalated reason to attack the drug trade. We have already had 
lots of reasons when you consider the domestic implications and 
extraordinary damage of the drug trade here on individual 
lives. Now, the drug trade is involved with the life of the 
Nation with security itself.
    The emphasis for me in this hearing, which is why the joint 
hearing interests me, is, of course, on whether or not, this 
by-word that we always use, ``coordination'' is, in fact, 
occurring and whether we can make it occur someplace in 
Government as vital as this. And for me, coordination really 
means focus. It means somehow everybody is looking at the same 
thing even though their missions may differ in some material 
respects.
    So I want to know, at the bottom line, whether what should 
be an increased attack on the narcotics trade is being felt 
because of this new national security interest that we now have 
in the narcotics trade. I, like the chairman and the ranking 
member, I am absolutely fascinated to see what has happened to 
the CNO position, Counternarcotics Officer position. When you 
create a new position like this it is difficult enough to find 
your way. But I do not see how there is any hope of 
coordination if that position is not, in fact, central to it. 
We have to look at that position first and then go from there, 
scatter out from there.
    So I appreciate, again, your work, Mr. Chairman, in 
focusing us today on this very important new position and this 
very important new mission of those who have been in the work 
of attacking the narcotics trade and the damage it does to our 
country. Thank you.
    Mr. Souder. Thank you very much.
    Before proceeding, I would first like to go over a couple 
of procedural matters. I first ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record, and that any answers to 
written questions provided by the witnesses also be included in 
the record. Without objection, so ordered.
    Second, I ask unanimous consent that all Members present be 
permitted to participate in the hearing.
    Now as the witnesses know, the standard procedure of the 
Government Reform Oversight is to ask our witnesses to testify 
under oath. So if you would each stand and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record that each of the witnesses 
responded in the affirmative.
    Thank you again for your patience in getting started, and 
for your many years of leadership in all your different posts 
throughout the Government.
    We will start with Mr. Bonner.

  STATEMENTS OF ROBERT BONNER, COMMISSIONER, U.S. CUSTOMS AND 
  BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY; ADMIRAL 
THOMAS H. COLLINS, COMMANDANT, U.S. COAST GUARD, DEPARTMENT OF 
HOMELAND SECURITY; MICHAEL J. GARCIA, ASSISTANT SECRETARY, U.S. 
  IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND 
     SECURITY; AND ROGER MACKIN, COUNTERNARCOTICS OFFICER, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Bonner. Thank you, Chairman Souder and Chairman Camp, 
and other distinguished members of the subcommittee. I am very 
pleased to join with my colleagues here from the Department of 
Homeland Security to discuss, in particular, U.S. Customs and 
Border Protection's role in our Nation's drug interdiction and 
drug enforcement efforts.
    It was over 16 months ago, Mr. Chairman, in fact, March 1, 
2003, that all U.S. Government agencies with significant border 
responsibilities were unified into one frontline border agency 
to create U.S. Customs and Border Protect within the Department 
of Homeland Security.
    This merger I think, as the members of the committee know, 
essentially was a merger of a large part of Customs, in fact, 
all of Customs with the exception of our Office of 
Investigation, which were the U.S. Customs Special Agents, and 
the air and marine interdiction assets, but with the exception 
of that, all of Customs essentially was merged with the Border 
Patrol, all of the frontline Immigration inspectors, as well as 
all of the Agriculture inspectors to form what Secretary Ridge 
has called ``One Face at the Border,'' or one agency to manage, 
secure, and control our borders.
    With that merger, by the way, which is the largest actual 
merger of people and functions taking place within the 
Department of Homeland Security, Customs and Border Protection 
became the single unified agency charged with managing, 
securing, and controlling our borders, all the ports of entry, 
and the points in between. This reorganization of our border 
agencies into one agency, by the way, in my judgment makes us 
better prepared and better able to protect our Nation from all 
external threats, not just terrorists and terrorist weapons, 
but also illegal drugs and from those who attempt to smuggle 
illegal drugs across our borders.
    I want to just assure every member of both committees that 
Customs and Border Protection is totally committed to its drug 
interdiction and drug enforcement role at and near our Nation's 
borders. While Custom and Border Protection's priority mission 
is to prevent terrorists and terrorist weapons from entering 
the United States, we retain the traditional enforcement and 
interdiction missions of our predecessor agencies, and that 
includes most certainly preventing the entry of illegal drugs 
across our borders and apprehending those who would attempt to 
smuggle them into the United States.
    Let me also say that our missions against terrorism and our 
mission against drug smuggling are complementary. They are not 
mutually exclusive missions. One does not come at the expense 
of the other. Rather, Customs and Border Protection's 
initiatives to prevent terrorists and terrorist weapons from 
entering the United States have actually enabled us to be more 
effective in seizing illegal drugs and those who attempt to 
smuggle them across our borders.
    There is no better testament to the fact that we have not 
lost our focus, we have not slackened our efforts than looking 
at the drug seizures and the arrest rates at our borders over 
the last year to 16 months. Last year alone, Customs and Border 
Protection seized 2.3 million pounds of illegal drugs, that is 
over 1 million kilograms, at and near our borders. That is an 
average of 6,300 pounds, a little over 3,000 kilograms, each 
and every day of the year that are being seized by Customs and 
Border Protection. Of that total, almost 1 million pounds of 
those illegal drugs were seized by CBP at our ports of entry, 
mainly at our land border with Mexico, but also including JFK 
and Miami Airports and other ports of entry into our country, 
and 1.3 million pounds of that total was seized between the 
ports of entry by the Border Patrol, which, as you noted, 
Chairman Souder, is now part of Customs and Border Protection.
    While last year was a record-breaking year for seizures, we 
are keeping pace this year and when annualized out I believe 
that our total seizures may well exceed last year's total, at 
least marginally. Let me just say, with respect to drug 
arrests, that last year Customs and Border Protection, this is 
both Border Patrol Agents and CBP Officers at the ports of 
entry, arrested 14,000 people for smuggling illegal drugs into 
the United States. And we are on pace to at least meet or 
exceed that this year.
    Today, Customs and Border Protection has 30,000 uniformed 
personnel to protect our borders. That is, about 19,000 
inspectors or Customs and Border Protection Officers at the 
ports of entry, and approximately 11,000 Border Patrol Agents. 
And since September 11, by the way, we have added more 
detection technology at our borders and we are getting far more 
advanced information about people and cargo shipments that are 
arriving in our country or to our country significantly before 
they arrive. That is improving our ability to target for all 
threats--terrorists threat, drug threat, and any other threat. 
We have tripled the number of large-scale, whole container, 
whole truck x-ray scanning machines. Before September 11 we had 
45 of those machines. We now have 151. We have doubled the 
number of drug seizures using large-scale Non-Intrusive 
Inspection [NII] x-ray machines from about 225,000 pounds to 
over 442,000 pounds of illegal drugs.
    This sustained border enforcement presence, supported by 
Border Patrol interior checkpoints--and we have checkpoints 
interior of the border literally from California, from the 
Pacific Ocean at San Clemente, all the way to Texas--allow us 
to add a level of interdiction capability. In fact, by the way, 
about half of the Border Patrol's drug seizures take place at 
or near the interior checkpoints of the Border Patrol.
    So nearly everything Customs and Border Protection has 
done, and continues to do, to make our country more secure from 
terrorists also helps us make the country more secure from drug 
smuggling and illegal drugs. And our strategies against 
terrorism and drug trafficking work together hand-in-glove.
    So, with that brief statement, let me thank both the Chairs 
here and the committee for this opportunity to make a brief 
statement, and I will be happy to answer any questions the 
committee members may have.
    Thank you.
    [The prepared statement of Mr. Bonner follows:]

    [GRAPHIC] [TIFF OMITTED] T9655.008
    
    [GRAPHIC] [TIFF OMITTED] T9655.009
    
    [GRAPHIC] [TIFF OMITTED] T9655.010
    
    [GRAPHIC] [TIFF OMITTED] T9655.011
    
    [GRAPHIC] [TIFF OMITTED] T9655.012
    
    [GRAPHIC] [TIFF OMITTED] T9655.013
    
    [GRAPHIC] [TIFF OMITTED] T9655.014
    
    [GRAPHIC] [TIFF OMITTED] T9655.015
    
    Mr. Souder. Thank you.
    Admiral Collins.
    Admiral Collins. Good afternoon, Chairmen, both chairmen, 
and distinguished members. I add my comments to Rob Bonner's, I 
am very, very pleased to be here in this panel to discuss this 
incredibly important issue. And as my colleagues do, the Coast 
Guard takes extremely seriously Congress' charge to the 
Department of Homeland Security to protect America's borders 
against illegal activity, including drugs.
    Our maritime strategy combatting illegal drugs is based on 
flexible, intelligence-driven operations, a focus on 
international engagement, leveraging technology, and very, very 
strong strategic partnerships. We have deployed significant 
resources and have committed tremendous organizational energy 
to this strategy, and we are getting results.
    So far this fiscal year, the Coast Guard has seized over 
148,000 pounds, or 68 metric tons, of cocaine in the maritime, 
valued at almost $5 billion. And we have set a record for the 
number of arrests at sea, we have set a record for the number 
of interdiction events, and we have set a record for the number 
of arrests at sea. All of these are annual records this year 
with 2 months to go.
    We have effectively doubled the productivity per aircraft 
and cutter hour allocated, productivity in terms of seizures. 
That success is a direct result of a number of focused efforts. 
We have effectively doubled the number of our armed aviation 
assets through a change in tactical deployment and doctrine. We 
have aggressively employed forward operating locations for our 
maritime patrol aircraft. We have maintained robust force 
structure to Joint Interagency Task Force-South, headquartered 
in Key West. And we have successfully leveraged technology, 
intelligence, and international coalitions.
    Our success is also made possible by the many strategic 
partnerships within the new Department. We attained a high 
level of performance, from my view, by improved coordination 
through planning, intelligence sharing, and joint operations, 
No. 1, with our DoD partners through joint monitoring and 
detection operations, and with our international partners 
through the development of, and we are very proud of this, 26 
very strong, active bilateral and regional maritime and law 
enforcement agreements throughout the Caribbean and South 
America.
    Mr. Mackin, in his joint role as the Narcotics Officer and 
USIC, has been a great catalyst for these partnering efforts, 
in invigorating our CD intelligence focus, sharpening our 
collective strategic emphasis. And as noted in his written 
statement, our efforts in the counter-drugs fight offer other 
important benefits to the Nation. The counter-terrorism and 
counter-drug missions are mutually supportive and reinforcing 
regarding the ability to detect, monitor, and interdict.
    We are also actively involved in interdepartment, 
interagency planning and operational processes. In addition to 
our operational assets, that is our ships and our planes, the 
Coast Guard has over 500 law enforcement personnel assigned 
around the world involved in interagency efforts to combat 
illegal drugs. Coast Guard personnel serve on many teams, 
including the DHS operations and planning staffs, Joint 
Interagency Task Force-South and West, we have over 20 people 
in JIATF-South, DEA's El Paso Intelligence Center, the Panama 
Express initiative, the Organized Crime Drug Enforcement Task 
Force Fusion Center, and in ICE's Air and Marine Operations 
Center, and at ICE's headquarters, just to name a few. I am 
particularly proud of these partnering efforts and how they are 
yielding impressive results.
    But there is more to be done operationally. From my 
perspective, although we are focused on coordination here 
today, the key to further success in the maritime part of this 
interdiction is not only effective partnering, but it is more 
importantly about capability and and capacity. For the Coast 
Guard this includes, for example, additional surveillance 
packages for our six new C-130J maritime patrol aircraft, they 
do not have them now; augmenting the number of flight hours on 
our existing C-130's, we can get more flight hours if we 
augment them; equipping all our helicopters with airborne Use 
of Force, which is a key enabler for go-fast; and funding our 
overall modernization program, it is the centerpiece of our 
efforts to get more effective at sea. Collectively, from my 
perspective, these are the clear performance enablers. The 
President addresses capacity and capability improvements in the 
fiscal year 2005 budget request, for which I ask for your 
continued support, and particularly our modernization efforts, 
which will deliver the capability and the capacity for us to 
get, continue, and build on these impressive record-breaking 
results that we have had this year.
    Thank you, Mr. Chairman. I would be glad to answer any 
questions you might have later in the day.
    [The prepared statement of Admiral Collins follows:]

    [GRAPHIC] [TIFF OMITTED] T9655.016
    
    [GRAPHIC] [TIFF OMITTED] T9655.017
    
    [GRAPHIC] [TIFF OMITTED] T9655.018
    
    [GRAPHIC] [TIFF OMITTED] T9655.019
    
    [GRAPHIC] [TIFF OMITTED] T9655.020
    
    [GRAPHIC] [TIFF OMITTED] T9655.021
    
    [GRAPHIC] [TIFF OMITTED] T9655.022
    
    Mr. Souder. Thank you.
    Mr. Garcia.
    Mr. Garcia. Thank you, Chairman Souder, Chairman Camp, 
members of the committees. It is a pleasure to be with you here 
today to discuss how U.S. Immigration and Customs Enforcement, 
or ICE as we call it, is working with our partner agencies 
within DHS in the fight against narcotics smuggling. My 
testimony today will focus on the counternarcotics mission of 
ICE, the authorities and assets we bring to this effort, and 
how we are working with other agencies to coordinate this 
mission, a mission that is tied directly to our homeland 
security. And I think that was a theme that was hit on in many 
of the statements here today.
    The mission of homeland security is to address 
vulnerabilities that expose our borders to infiltration, our 
financial systems to exploitation and that weaken our national 
security. And smuggling is a direct threat to our border 
security. Organizations that exploit our borders to bring in 
narcotics could, for the right amount of money, employ those 
methods to bring in components for weapons of mass destruction. 
Smugglers that prey on individuals seeking to come to America 
for economic opportunity could use the same routes and methods 
and exploit those border vulnerabilities to bring terrorists 
into our country.
    ICE seeks to use its extensive resources and authorities, 
working with our partners within DHS and other Federal, State, 
and local law enforcement agencies, to close those 
vulnerabilities and protect our homeland. Let me give you one 
example.
    Last November, ICE agents, building upon truly terrific 
work done by Customs and Border Protection inspectors at JFK 
Airport in New York, targeted 19 airport workers--baggage and 
cargo handlers and their supervisors--with unrestricted access 
to international cargo and passenger flights. Working closely 
with CBP and other Federal and local agencies, this 
investigation alone netted 400 kilograms of cocaine and 
hundreds of pounds of marijuana, mostly from Guyana and 
Jamaica. Twenty-five defendants were charged, including 21 
airport employees. This case illustrates how a conspiracy among 
airport employees to smuggle drugs into the United States 
compromised our border security. It is apparent how a similar 
criminal conspiracy could create a vulnerability that could 
potentially be exploited by terrorists.
    With the creation of ICE, we have built upon the U.S. 
Customs Service counternarcotics program with its extensive 
border authority, smuggling, and financial crimes expertise, 
and the Air and Marine assets, and merged them with the 
Immigration Enforcement authorities of the Immigration and 
Naturalization Service. Immigration enforcement authorities are 
a powerful tool that our agents use to attack and dismantle 
smuggling organizations, whether they smuggle people or drugs, 
and to bring additional Federal charges against targets or 
potential informants in ongoing drug smuggling investigations. 
In fact, in this fiscal year, ICE has effectively used our 
Title 8, our immigration authority in more than 138 of its 
narcotics investigations.
    Another key component of ICE's approach to counternarcotics 
is the use of our extensive financial crimes expertise. ICE 
targets money service businesses, bulk cash smuggling, and 
trade based money laundering, such as the black market peso 
exchange, which are used to launder narcotics proceeds. Since 
July 2003, ICE and CBP have collectively seized more than $40 
million before it could be illegally exported, and ICE has 
arrested more than 133 individuals.
    Our Office of Intelligence maintains an effective and 
powerful focus on drug interdiction as part of the larger 
counter-smuggling effort. ICE's Tactical Intelligence Center 
[TIC] is a center that produces the kind of intelligence that 
has put interdiction assets right on top of smugglers with 
multi-ton loads of drugs. In fiscal year 2004 to date, the TIC 
has provided intelligence that has resulted in the interdiction 
of 50 tons of cocaine, 34 tons seized and 16 tons sunk, burned, 
or otherwise destroyed.
    One of the key responders to TIC information is ICE's Air 
and Marine Operations unit, or AMO. AMO assets allow us to 
cover a much wider range of territory, extending our borders to 
include source, transit, and arrival zones for narcotics 
smugglers, and in many cases stop the smugglers before they can 
even get to the United States. In Operation HALCON, for 
example, our AMO pilots are working in close partnership with 
Mexican law enforcement officials to interdict smuggling 
operations that attempt to penetrate the U.S. border. This 
initiative in the arrival zone, along with operations in 
Bahamas and in transit zones, and Air Bridge Denial in the 
source zone, follow a successful defense in depth strategy.
    A recent Operation Bahamas interdiction led to the seizure 
of 1,000 kilograms of cocaine. Acting on information provided 
by the DEA to AMO and the Coast Guard, AMO was able to pursue 
two go-fast vessels off the coast of the Bahamas, eventually 
using disabling fire to stop them. This operation led to the 
arrest of six individuals, the seizure of both vessels, and the 
cargo of cocaine.
    Interagency cooperation and coordination is key to the 
counternarcotics mission. One recent example of how we are 
working together happened just a few weeks ago. CBP officers 
assigned to the Port of Entry in San Ysidro, California, 
discovered a false compartment in an SUV containing 61 
kilograms of cocaine. ICE special agents, with the assistance 
of airborne surveillance provided by AMO, and in coordination 
with the DEA, initiated a controlled delivery to a residence in 
California where ICE agents arrested the recipient of the 
drugs, seized an additional 44 kilograms of cocaine, as well as 
two more vehicles outfitted with false compartments. Following 
successful completion of this delivery, ICE and DEA actively 
shared information in a joint effort to determine any further 
investigative action.
    In sum, narcotics smuggling poses a threat to our Nation, 
both as a direct result of the horrific effects on our society 
of the drug trade and as a national security issue. At ICE we 
approach it as a traditional law enforcement mission, one by 
law we are required to continue, and as a homeland security 
mission, a border integrity issue.
    I would like to thank you, Chairman Souder, Chairman Camp, 
and the members of these committees for the opportunity to 
testify before you today. I look forward to answering any of 
your questions.
    [The prepared statement of Mr. Garcia follows:]

    [GRAPHIC] [TIFF OMITTED] T9655.023
    
    [GRAPHIC] [TIFF OMITTED] T9655.024
    
    [GRAPHIC] [TIFF OMITTED] T9655.025
    
    [GRAPHIC] [TIFF OMITTED] T9655.026
    
    [GRAPHIC] [TIFF OMITTED] T9655.027
    
    [GRAPHIC] [TIFF OMITTED] T9655.028
    
    [GRAPHIC] [TIFF OMITTED] T9655.029
    
    [GRAPHIC] [TIFF OMITTED] T9655.030
    
    [GRAPHIC] [TIFF OMITTED] T9655.031
    
    [GRAPHIC] [TIFF OMITTED] T9655.032
    
    Mr. Souder. Thank you.
    Mr. Mackin.
    Mr. Mackin. Chairman Souder, Chairman Camp, distinguished 
members of the Government Reform and the Homeland Security 
Subcommittees, it is a distinct privilege to appear before you 
today and testify as the Counternarcotics Officer of the 
Department of Homeland Security and as the U.S. Interdiction 
Coordinator, a position I have held since March of last year.
    Chairman Souder, the importance of the position you created 
for a senior level official within the Department of Homeland 
Security to coordinate counternarcotics matters cannot be 
overstated. In the face of very real terrorist threats and the 
Department's responsibility to secure our Nation from them, the 
position has helped keep the Department dedicated to what I 
call its other mission, which is to interdict the entry of 
illegal drugs into the United States and to track and sever 
connections between illegal drug trafficking and terrorism. The 
President, Secretary Ridge, and I are grateful for your 
continuing efforts and steadfast leadership in the prosecution 
of this critical mission. Thank you for you unwavering support 
to the Department of Homeland Security, its mission, and 
personnel.
    While simultaneously addressing the increased terrorist 
threat, the Department remains strong in its commitment to 
improve and expand its counter-drug interdiction capabilities 
and those of our allies against the drug threat. Enhancement to 
our border security and increased intelligence in the transit 
zone are yielding greater results for the counter-drug mission. 
For example, drug seizure rates for this year are significantly 
higher than for the same period last year and are on pace for a 
record year. The Department continues to assess the current 
drug threat carefully and to adjust its plans for the optimal 
application of interdiction resources.
    I would like to note, as my colleagues have already said 
several times, countering terrorism and drug interdiction are 
synergistic. The Department is aware of linkages and potential 
linkages between terrorist organizations, narcotics 
trafficking, weapons smuggling, and alien smuggling networks. 
Fortunately, countering terrorism and countering narcotics are 
synergistic rather than competing. An action or capability 
focused on one of the threats simultaneously strengthens our 
security against the other. The strong posture that the 
Department of Homeland Security maintains against drugs 
directly strengthens our Nation's security against all border 
threats, especially since terrorists can readily piggyback 
already established drug smuggling pathways and systems to 
threaten our homeland. As President Bush has stated, ``If these 
methods are good enough for hunting criminals, they're even 
more important for hunting terrorists.''
    No one, not this Congress, the American public, nor drug 
traffickers should misinterpret the Department of Homeland 
Security's focus on terrorism as a weakening of its resolve 
against illegal drugs. We have strengthened our commitment as 
we have intensified our overall presence along America's 
border, in the transit zone, and abroad.
    My office, working with the Secretary and DHS components, 
is focused on improving the preparedness of DHS organizations 
on the border, its ships at sea, and forward deployed maritime 
patrol aircraft. These multipurpose resources greatly enhance 
the ability of our Nation to engage a terrorist cell or a drug 
trafficking organization attempting to smuggle people and 
contraband into the United States. The best example of the 
value of our counter-drug posture is the highly successful 
Joint Interagency Task Force-South, which is directed by a 
Coast Guard officer and vectors a huge amount of DHS resources 
on a daily basis against smuggling threats. This element, the 
JIATF-South, was created well before September 11 to manage the 
detection and monitoring of suspect drug related maritime and 
air smuggling efforts. After September 11, it became a potent 
resource to defend against approaches from the south by 
aggressive terrorist organizations. Hence, our Nation is now 
more secure because of our earlier development of a joint 
counter-drug law enforcement and military interdiction 
structure to secure our southern approaches first against the 
narcotics threat and now against the terrorist threat.
    I can assure you that Secretary Ridge, the Deputy 
Secretary, the Under Secretaries, and the rest of the DHS 
leadership team fully appreciate the dimension of the illicit 
drug threat and its impact on the U.S. populace. To demonstrate 
this, let me mention just three of a list of DHS' aggressive 
counter-drug activities. More are in my written testimony.
    We have expanded the counter-drug use of maritime patrol 
aircraft. Responding to JIATF-South's request for increased 
counter-drug P-3 flight hours from DHS, I immediately 
recommended, with Secretary Ridge's support, that DHS seek to 
triple the number of P-3 hours provided to JIATF-South each 
month for counter-drug use in fiscal year 2005.
    Now regarding the important Tethered Aerostat Radar System, 
in my role as the U.S. Interdiction Coordinator, and with a 
special focus on DHS, my office spent considerable time working 
to ensure the continued operation of the TARS. And at our 
urging, DoD has recommended rebuilding the system to full 
operational capability.
    And last year at the October USIC Summit Conference, I 
urged the interdiction community to look for ways to raise the 
number of interdiction successes per month. As a result, 
cocaine interdiction in the transit zone is higher for the 
first half of 2004. We now have achieved 152 metric tons of 
cocaine seizures. This is higher than ever before achieved in 
any 6 month period.
    In conclusion, these achievements, which are just a few of 
a long list, demonstrate the commitment of the Department of 
Homeland Security since its creation in March 2003 and when I 
was honored with the opportunity to serve. I would like to 
thank the chairmen and the members of the subcommittees for 
this opportunity to report to you, and for the support you have 
provided the Department. Like you and all the distinguished 
members of these subcommittees, the Department of Homeland 
Security recognizes both the direct and indirect threats that 
illicit drug trafficking poses to our national security and our 
Nation. The Department remains committed to using our skills, 
resources, capabilities, and superb personnel to continue to 
disrupt, deter, and destroy the organizations
that attempt to steal the lives of our children with the lure 
of illicit drugs.
    I thank you for your continued support, and will be happy 
to answer any questions.
    [The prepared statement of Mr. Mackin follows:]

    [GRAPHIC] [TIFF OMITTED] T9655.033
    
    [GRAPHIC] [TIFF OMITTED] T9655.034
    
    [GRAPHIC] [TIFF OMITTED] T9655.035
    
    [GRAPHIC] [TIFF OMITTED] T9655.036
    
    [GRAPHIC] [TIFF OMITTED] T9655.037
    
    [GRAPHIC] [TIFF OMITTED] T9655.038
    
    [GRAPHIC] [TIFF OMITTED] T9655.039
    
    [GRAPHIC] [TIFF OMITTED] T9655.040
    
    [GRAPHIC] [TIFF OMITTED] T9655.041
    
    [GRAPHIC] [TIFF OMITTED] T9655.042
    
    [GRAPHIC] [TIFF OMITTED] T9655.043
    
    [GRAPHIC] [TIFF OMITTED] T9655.044
    
    [GRAPHIC] [TIFF OMITTED] T9655.045
    
    Mr. Souder. Thank you. Chairman Camp is going to start the 
questioning.
    Mr. Camp. Thank you. I want to thank all of you for your 
testimony. I have a question that I would like each of you to 
take a shot at answering, and that is, how has the coordination 
and sharing of counter-drug intelligence between the various 
agencies improved since the creation of the Department of 
Homeland Security? Mr. Bonner, if you want to go first, since 
you are on the left.
    Mr. Bonner. I probably have the easiest job here, I think, 
in answering that question because, first of all, as a border 
interdiction agency, the coordination, if you think about it, 
is essentially transacting seizures of illegal drugs and seeing 
that there is appropriate followup investigations from those 
seizures. We have a very close cooperative relationship with 
ICE in terms of seizures that take place at the ports of entry 
along the Mexican border. These are the former Customs Special 
Agents, essentially. That relationship has existed for years 
and it is a very effective relationship that gets the followup 
investigations where that can be done in the form of controlled 
deliveries, and, by the way, Assistant Secretary Garcia 
illustrated a quintessential type of controlled delivery, the 
kind of partnership--CBP makes the seizure, hidden compartment, 
SUV, San Ysidro, we contact the ICE Special Agents. There is a 
followup controlled delivery up to Los Angeles which leads to 
more arrests, more drug seizures, which leads to more 
intelligence to make us do a better job of interdicting at the 
border.
    And on the other hand, this is outside the Department but 
certainly with the assistance of Mr. Mackin, we have a historic 
relationship between the Border Patrol, which seizes a vast 
quantity of illegal drugs at and near the border, and the DEA. 
Essentially, it is a very similar relationship. They also seize 
a vast quantity of illegal drugs coming across our border. They 
make apprehensions, for investigative purposes, those cases are 
turned over to the Drug Enforcement Administration. That 
relationship, by the way, continues. It is not broken. It is 
working very well, in my judgment, from everything I know.
    So in that sense, in terms of our interaction, it is 
primarily our interaction. Customs and Border Protection is a 
border agency, with our two prime investigative agencies for 
followup investigative work, and that is ICE and the Drug 
Enforcement Administration.
    Mr. Camp. And obviously a large part of that is finding 
patterns and linking those individual cases to potential larger 
smuggling rings. Is that being done, and who handles that?
    Mr. Bonner. That is being done, and certainly we are always 
looking at the trends in terms of the patterns of drug 
smuggling, how drugs are being smuggled in. A lot of that 
information, by the way, is self-generated because we are the 
border agency, we know how heroin is being smuggled into JFK 
and Miami. I could talk to you and give you chapter and verse. 
So, we are using that kind of information to improve our 
success rate in terms of interdictions and seizures at the 
border. At the same time, we get the investigative feedback 
loop, and that is to get information from both DEA and ICE as 
to things that we need to be looking for as a result of 
intelligence or information that has resulted from the arrest 
and information that is developed from interrogation of drug 
trafficking organizations and people that belong to them.
    So I actually think, if anything, it has been improved 
under the Department of Homeland Security. I certainly would 
say I do not see in any way at this juncture that there has 
been any degradation of the kinds of cooperative relationships 
we need to have to function. Having that said, I would like to 
have more information, more intelligence, both tactical and 
specifically, about who, what, and when is going to cross the 
border in terms of illegal drugs. We have a voracious appetite 
for that. That is an area, by the way, I know, working with Mr. 
Mackin and my colleagues here, we are looking at some ways we 
might actually improve our interdiction rates and our 
interdiction successes beyond some pretty impressive statistics 
or figures that have been occurring in the last year or two, 
both from Customs and Border Protection, Coast Guard, and the 
other agencies.
    Mr. Camp. Admiral Collins.
    Admiral Collins. I would have to say a very positive 
response to your question. I think the information flow, the 
coordination----
    Mr. Camp. I know we are running out of time on my time, so 
if each of you could just answer quickly, then the chairman 
will not have to use his gavel.
    Admiral Collins. I think it has improved. There are many, 
many integrating mechanisms that move information back and 
forth. We have liaison officers in respective staffs that move 
this information. I think it is a very positive development.
    Mr. Camp. Thank you.
    Mr. Garcia. Quickly, on a theme that goes to the heart of 
your question I think, Mr. Chairman, looking at combining 
intelligence against drug smuggling organizations and now 
looking at alien smuggling organizations, and the money that 
fuel both, I think we can do a more effective job now that we 
are combined.
    Mr. Camp. Thank you.
    Mr. Mackin. Mr. Camp, intelligence is my middle name. I had 
a career in the CIA as an operations officer and I brought this 
to this task. We are attacking the outbound flow of currency 
through what is called the black market pesos exchange attack, 
it is headed by ICE, I have organized it, bringing the 
Department of Justice, Treasury, and DHS together to do that. 
We are instrumental in the planning of the OCDETF Drug Fusion 
Center, planning and structuring it. We are helping, as Mr. 
Bonner said, we are helping to create a border interdiction 
support center for the whole southwest border, to aggregate 
together all the intelligence, make more sense out of it, and 
feed it back to the operators. We have been supporting the 
Panama Express Operation with both people, technical support, 
and money. And finally, I spend a lot of my time working with 
our Mexican colleagues to get them to share, to respond more to 
our direction and to share information back with us. I am just 
back from a Lateral Interdiction Working Group that I chaired 
yesterday in Key West on this subject.
    Mr. Camp. Thank you. Thank you, Mr. Chairman.
    Mr. Souder. Thank you. Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. Mr. 
Mackin, you have two titles, is that right?
    Mr. Mackin. Yes, sir.
    Mr. Cummings. You are the DHS Counternarcotics Officer and 
the U.S. Interdiction Coordinator. And as the Counternarcotics 
Officer, you have no staff, is that right?
    Mr. Mackin. I have aggregated a staff. I started with 
nothing and spent quite a bit of time doing that, sir.
    Mr. Cummings. Say that again.
    Mr. Mackin. Initially, I was a singleton, and I walked 
around and shook hands and got contributions and so forth and I 
got some FTE. And yes, I have a staff now.
    Mr. Cummings. OK. How many people on your staff?
    Mr. Mackin. I have nine FTEs and about eleven detailees to 
my staff, sir.
    Mr. Cummings. And do you receive a salary from DHS?
    Mr. Mackin. Sir, I am detailed from the Drug Czar's office.
    Mr. Cummings. So then the Drug Czar pays your salary?
    Mr. Mackin. He pays my salary, yes, sir.
    Mr. Cummings. Now how does that affect your ability to 
carry out your statutory duties as the CNO?
    Mr. Mackin. The ONDCP relationship?
    Mr. Cummings. Yes, sir.
    Mr. Mackin. It gives me access--I am the Intelligence 
Officer for the Drug Czar, and so I have a tremendous flow of 
counter-drug intelligence that I access daily as a result. And 
so I carry that to DHS. So there is a definite advantage to it.
    Mr. Cummings. When you came into this office, first of all, 
you had a pretty good idea what your role would be.
    Mr. Mackin. I could envision it from my perspective. But as 
I watched DHS become DHS, it was, OK, I had to learn who the 
players were and had to convince them by virtue of personality 
and background that I was worth dealing with. I mean, you can 
understand that.
    Mr. Cummings. I can understand.
    Mr. Mackin. They were very busy doing their jobs and I had 
to knock on their door and say, ``I am here to help.''
    Mr. Cummings. I understand. How do you feel that you have 
been treated? I just want to go where you just were leading me, 
maybe you were not leading me, but I am going down there 
anyway. So you were sort of like an outsider kind of guy?
    Mr. Mackin. Well, these gentlemen have great corporate 
enterprises to manage, and I come along and I am the 
Counternarcotics Officer and they are looking at it and saying 
this guy is going to tell me how to do my business. So, 
naturally, there is some trepidation on their part as I knock 
on their door. But I have been received very, very well, sir.
    Mr. Cummings. Good. Now you said you had a vision of what 
you thought your job should be. First of all, the reason I am 
asking you these questions is because Congressman Souder and I 
spent a lot of time creating your position.
    Mr. Mackin. Yes, sir.
    Mr. Cummings. And I am curious as to how it is working out. 
That is where I am going. You got me?
    Mr. Mackin. Yes, sir.
    Mr. Cummings. Because I do not want you to think I am 
trying to do anything but do what I just said.
    Mr. Mackin. As far as the interface on an operational 
basis, it is going very, very well. My vision is based on years 
of experience in the CIA working against a drug target, and I 
did a lot of paramilitary work as well, and I learned that you 
have to have collaboration, you have to have teamwork of all 
the people that can play. If they work separately, you will not 
get there. And that is particularly true against the drug 
trafficking threat. They are people who are a lot more clever 
at times than we are and they do not have any rules to go by, 
and they have more cash to work with. So we have to work as a 
team. And I walked in saying I have to help DHS to collaborate 
within and between DHS and the other organizations. The other 
thing is we have to have superb intelligence. In any endeavor, 
any human endeavor, you have to understand what you are up 
against or what your path is. And I have spent a lot of time 
trying to help improve that. And third, you have to focus. You 
cannot do it all. So collectively, are we putting our resources 
where they will get the greatest return. Those are the three 
precepts that I work by.
    I have gotten excellent support from Secretary Ridge. Let 
me note that the first time that I briefed Secretary Ridge on 
the drug threat and he noted that, it was in the testimony 
here, that we are losing about 20,000 people a year directly to 
drugs, he stopped me for a moment and he said, ``That is over 
six Twin Tower events a year.'' ``Yes, sir, it is.'' He got it. 
The Deputy Secretaries that we have understand it very well, 
all the Under Secretaries are quite aware. And I have spent my 
time trying to educate them, for those that were not already 
familiar, to that subject, and I think I have had some success, 
sir.
    Mr. Cummings. So you had a full understanding then when I 
said that when you go to someplace like the inner-city of 
Baltimore, you have terrorists right on the street corners?
    Mr. Mackin. Yes, sir. Sir, we have foreign criminal 
organizations working throughout the country that deliver those 
drugs to your cities, and that bothers me a lot. We have enough 
criminals inside our own country without the foreign criminal 
organizations coming in. And that shows me how easy it is for 
terrorists to get here. So we are working very hard and I think 
there are indications of success of the synergism working the 
counternarcotics enterprise and terrorism. We are getting 
stronger.
    Mr. Cummings. You understand what our concern was. I know 
that there have been numerous questions already, we worried 
tremendously when Homeland Security was developed that emphasis 
would be taken off of the drug problems right here in this 
country and that--I did not realize my time ran out. I just 
want to ask this one question, Mr. Chairman--that so much 
attention would be shifted. And we understand the shift, we 
really do. But at the same time, to that lady who cannot come 
out of her door on Madison Avenue in Baltimore because she is 
afraid, she cannot even go to church because she is afraid that 
she is going to be mugged, or the person who goes to bed at 
night unable to sleep because they are afraid somebody is going 
to break in the window and try to rob them to get money for the 
next fix, or people who go to funerals two or three times, 
maybe four times a year for relatives and people they know who 
have been killed on the streets, they see what happened on 
September 11 and they kind of say, OK, that was a major deal, 
we hope it never happens again, but what they are more afraid 
of is what they see everyday. And so I am glad you have that 
perspective.
    Mr. Mackin. It is a terrible tragedy, sir. I will be frank. 
I do not think the Nation realizes it has a drug problem. I 
know that there are very concerned people here, hugely 
concerned people here, and all the people we have in the field 
that suffer and sometimes die at risk, they are aware of it. 
But, by-in-large, I do not think our country is. As a result, 
there is too much passivity to it. You have terrible things 
going on in Baltimore, but there are a lot of people who live 
in comfortable neighborhoods that do not experience that and so 
they are not aware of it, and thus they do not vector concern 
about it.
    Mr. Cummings. Thank you very much.
    Mr. Souder. Thank you. I have questions for each one of 
you, and I am sure we will have at least a second round because 
some of these are pretty critical regarding your departments. 
But I want to followup on Mr. Cummings' questions with Mr. 
Mackin.
    First of all, let me just say flat out that regardless of 
how it was worked in transition, and as you know, I was very 
supportive of you getting this position, when Mr. Cummings and 
I worked with the Speaker to create this, we did not view your 
position as a detailee. Period. And while there are useful 
things to be gained, as long as you are a detailee, you will be 
treated like a detailee.
    Second, are you aware that your staff are technically 
employed by Secretary Ridge and you cannot hire or fire your 
staff without the chief of staff's approval?
    Mr. Mackin. No, sir. But I have people on my staff who 
could do that, if they had to.
    Mr. Souder. You would have to go to Secretary Ridge because 
they are not directly under your employee.
    Mr. Mackin. I did not realize that, sir. Let me point out 
that most of the people, as you say, people look at me as a 
detailee, most of the people do not know that I actually get 
paid by ONDCP.
    Mr. Souder. The problem is that the Department of Homeland 
Security is supposed to be invested in narcotics. We know ONDCP 
is invested in narcotics. The question is, is the Department of 
Homeland Security invested in narcotics? The administration 
resisted this proposal in this Department. It was put in the 
bill over their objections by the House and the Senate and they 
need to follow what the intention of Congress was in this 
position. What funds do you directly receive from DHS, and who 
gives them to you? Do you have a budget for your department 
with flexibility?
    Mr. Mackin. Well, the FTEs that I have, sir----
    Mr. Souder. Beyond even that, what kind of budget do you 
have in your department?
    Mr. Mackin. I do not have one, sir.
    Mr. Souder. Do you believe that, given the fact that you do 
not have direct control over your employees, your salary is 
paid by ONDCP, and that you do not have a regular budget, do 
you believe that you can accomplish the missions?
    Mr. Mackin. Well, unfortunately, I have had to spend quite 
a bit of time concerned about office space, getting people, 
getting the administrative support, travel money, and so forth. 
It is forthcoming. I have not had any travel turned down. DHS 
pays the freight. But it is just that, yes, you do walk in sort 
of with hat in hand looking for help rather than being, say, an 
official member.
    Mr. Souder. I know what difficulties there are. And as I 
made clear in my opening statement, look, this is not about 
individuals. We are very fortunate in the mix of individuals we 
have as far as counternarcotics missions. That will not always 
be true. And furthermore, we are not always going to have the 
respite period we have had here for an extended period where we 
have not had an active terrorist attack since September 11 
which could divert all kinds of resources unless we have 
structural protections to make sure there is adequate resources 
for the DHS to accomplish multiple missions.
    Furthermore, I want to make clear, the reason you are in 
your slot is we all agree, anybody who works with narcotics, 
that intelligence is absolutely critical. But intelligence is 
not the only thing here. Let me just say as a Member who has 
followed this issue since I have been a Member, and before that 
as a staff, I find the increasing proliferation of intelligence 
proposals confusing and almost impossible to understand. Now 
here we are on the day when the 9/11 Commission report is being 
issued, the 9/11 Commission, like internally in Congress, 
understands there needs to be a coordination and 
centralization, your major proposals are that we need another 
center down at EPIC. The question is, does DEA agree with that?
    Mr. Mackin. Yes, sir.
    Mr. Souder. Well, it is a little mixed. OCDETF is trying to 
do these drug fusion centers. What we want to know--on the 
ground, we have a Riverside Center, we have the JIATFs, we have 
EPIC, we have the Intelligence Interpretation Center in 
Johnstown, we have RIS for local law enforcement, we have this 
proliferation. It is going to be a little difficult to convince 
some of us that there is a shortage of intelligence centers. 
Now if there are new centers, if each agency--in effect, what 
you are proposing here now is DHS needs an intelligence center, 
that this proliferation of intelligence centers may be 
necessary. But it is going to be a little bit of a hard sell 
when I believe the general public and Members of Congress are 
looking at how do we coordinate and consolidate intelligence 
centers, not how do we add intelligence centers.
    That is just kind of an initial reaction. Because when I 
was recently down on the Southwest border, and I want to make 
sure I get this into the record, two things: One is, there was 
a highly mixed opinion about the functions of the intelligence 
center and how we are going to work this through, and I have 
heard that directly.
    The other thing is the Southwest border is, without a 
doubt, our No. 1 transit zone for illegal narcotics. It also, 
at least at this point, looks like our most vulnerable. Those 
of us who live more North are very concerned about the northern 
border long term, but there we have better controls and are 
working aggressively with the Canadians to improve where those 
holes are in the northern border and legal holes. But the 
Southwest border is also very vulnerable on terrorism. Now when 
we had all the chief people in the sector of New Mexico, El 
Paso, and Arizona and asked them whether they had heard from 
the Counternarcotics Office, every single one testified under 
oath, No. In fact, only one had ever heard of you. And they are 
the people on the Southwest border.
    Now part of the question is your job was not just to create 
another intelligence center, or to go in a meeting with Mr. 
Ridge. Your job is to get out, and I know it is hard because 
there is line authority and your staff, but to keep the 
counternarcotics message in front of all of their divisions. 
Your assignment, created by Congress, is to make sure that, 
particularly in the area like the Southwest border, that they 
at least know there is a Counternarcotics Office. It was just 
astounding, under oath.
    Mr. Mackin. Sir, if I had not been paying attention to it, 
how did I propose the Border Interdiction Support Center that 
will fill a need that is not filled right now? It is all 
stovepiped along the border. It has been that way for 15 years 
and I am trying to help make that change so that it becomes a 
coherent activity and maybe we can improve our efficiency.
    Mr. Souder. I am anxious to talk about how we integrate 
EPIC, how we integrate the other centers, and how we improve 
intelligence. You are absolutely right on TARS. My 
understanding is the bill we are about to vote on in Congress 
reduces TARS again in the budget. We have to be more aggressive 
here.
    Mr. Mackin. It is a shame, sir.
    Mr. Souder. Yes, shame on Congress as well. And part of our 
proposal is how to get TARS under your division so that we have 
in the Department of Homeland Security not only an intelligence 
center, but actually intelligence to work with. Because if the 
military is not committed to helping keep the intelligence at 
an adequate level, what good does it do to make more 
intelligence centers if we do not have the intelligence. And we 
have gaps in our system if we do not have the TARS up. That is 
just a plain truth, and you pointed that out. But intelligence, 
as I am trying to point out here, is only part of the problem 
in the Southwest border.
    Mr. Mackin. I agree, sir. I am hoping that the aggregation 
of the intelligence would improve the performance of the 
operators. I spent most of my time as a paramilitary operator, 
I am not an intelligence puke, but I know the value of it. You 
have to know what you are doing. Now with Panama Express 
working the transit zone, we have more intelligence than we can 
exploit because, as Admiral Collins said, we do not have the 
capabilities to exploit. I cannot do magic in that aspect. But 
I assure you that I understand operations.
    Mr. Souder. Thank you. Ms. Sanchez.
    Ms. Sanchez. Thank you. My question is for Commissioner 
Bonner, and I understand that this is not going to relate 
necessarily directly to the topic at hand, but it deals with 
some of the frustrations that I and some of my colleagues have 
had with DHS and the various agencies that are grouped under 
that in terms of getting accurate information and finding out 
who is accountable for certain things. There have been a number 
of requests made to meet with you specifically related to the 
issue of the immigration sweeps that are being conducted in 
Southern California and elsewhere that do not appear to have 
much reasoning behind them as they relate to what we all think 
should be DHS' primary goal, which is catching terrorists and 
counter-terrorism efforts.
    I do not think there is a person in this room that would 
not agree that Federal resources are very scare and that what 
is important is how are those resources being used, and who is 
making the decision of where those resources will be committed. 
The sweeps that we have seen in the Southern California region 
I imagine, and maybe you can correct me if I am wrong, probably 
have a very minimal impact in dealing with the immigration 
problem, but they have had a very successful impact in terms of 
scaring not just illegal immigrants, but legal immigrants in 
California to the point where they are afraid to send their 
children to school, or go to the doctor's office for doctor 
appointments, or go to work so that they can support their 
families, and I am talking legal residents as well.
    So while I have you here, I would like to ask you, what 
purpose do you think those raids serve? And concretely, can you 
give me any answers to what they have accomplished? Whether or 
not those raids will continue? Because we have met with Mr. 
Garcia from ICE the other morning, Under Secretary Hutchinson, 
we do not get a clear answer as to whether those will continue. 
How the sweeps can be justified as not being based on ethnic 
profiling or racial profiling? And whether or not ICE is not, 
in fact, the agency who should be conducting those interior 
enforcement operations? I know 5 minutes is scant time to try 
to answer those question, but go ahead and give it a try.
    Mr. Bonner. Let me take a stab at it anyway. First of all, 
in terms of Border Patrol Agents, they are part of Customs and 
Border Protection, so they ultimately are reporting to me and I 
am responsible. Second, let me say, I do not want to get into a 
debate as to sweeps, but let me just say that the Border Patrol 
actions or activities that took place in Southern California, 
in Corona and Ontario, in particular, I would not call them 
``sweeps.'' They were intelligence-driven. They were not simply 
randomly going up to areas and communities.
    Ms. Sanchez. I have a followup question on that point.
    Mr. Bonner. Could I complete my answer though, because this 
gets directly to your question, and that is that the primary 
responsibility within the Department of Homeland Security for 
purely interior immigration enforcement is ICE, is Mr. Garcia, 
not me. With that said, and I understand Under Secretary 
Hutchinson may have spoken to you or others, so I thought that 
there actually had been some conversation on this subject.
    Ms. Sanchez. Conversation, not a lot of information.
    Mr. Bonner. Well, I am trying to give you some anyway on 
it. What I am telling you is that the Border Patrol, as part of 
Customs and Border Protection, its primary responsibility is 
controlling the border. Now we are going to do everything we 
need to do to control the border, and that is not just taking 
enforcement actions at the physical border itself. So some 
actions that are going to be taken by the Border Patrol, have 
been and will continue to be taken, are not going to be just at 
the borderline itself. That would not make a lot of sense, 
because then you could say once somebody actually gets past the 
physical border itself they are home free. Well, that is not 
the case. And so we are going to control the border and that 
means we are going to be taking actions that are relevant to 
controlling the border. And certainly any place where people 
that have illegally entered the United States may be transiting 
or moving through is certainly a Border Patrol responsibility.
    And last let me say, that with respect to what is a purely 
interior enforcement activity, and I have tried to define that 
for you, that requires approval from Border Patrol 
headquarters. I have made that directive. I have made it clear. 
Now if Mr. Garcia comes to me and he says, ``You know, 
Commissioner Bonner, I need your help for some interior 
immigration enforcement activity,'' and I have the resources to 
help ICE do that, of course I will. But our primary 
responsibility is going to be controlling the border and 
getting better control of the borders of our country, which we 
have always needed to do but it is absolutely essential in the 
post-September 11 environment because of the potential of 
terrorist penetration of our borders, and that includes not 
just the Canadian border, but the Mexican border.
    Ms. Sanchez. I have a brief followup question, if I may be 
permitted, Mr. Chairman, with respect to the intelligence. We 
have heard that these sweeps were, in fact, intelligence-driven 
based on requests from local law enforcement agencies who 
provided intelligence that supposedly was the basis of these 
sweeps or roving patrols or whatever you choose to call them. 
In fact, Congressman Baca spoke with the Ontario police 
department because that was cited as the source given for the 
intelligence, and they have responded in writing that they 
never sent intelligence or requests for those types of sweeps 
that were conducted in those areas. So fundamentally, the 
question I have is, this intelligence that was supposedly based 
on local law enforcement request, apparently, according to 
them, was never requested by them.
    Mr. Bonner. Look, all I can tell you is what I understand. 
My understanding is it was information or intelligence-driven, 
intelligence-using, in the broadest sense. And as a former 
Administrator of DEA, and frankly, in my current capacity, I 
have never disclosed sources to anybody. So I am not going to 
disclose sources here or get into who gave the information or 
who did not give the information. It is my understanding there 
was some actionable information that the Border Patrol was 
relying on.
    Ms. Sanchez. I thank the chairman for his indulgence.
    Mr. Souder. Thank you. Congresswoman Dunn, do you have any 
questions?
    Ms. Dunn. Thank you very much, Mr. Chairman. Yes, I do have 
a question. I am very relieved to hear from your testimony that 
the counter-terrorism mission is shoring up your work in doing 
counternarcotics work. There was some early concern I recall 
soon after the beginning of the Department over a year ago that 
legacy responsibilities might be neglected as you take on a 
whole lot of new responsibilities that are very important in 
making sure that terrorists do not get into our Nation.
    I represent a district that is adjacent to a major seaport 
on the West coast. It also has a border with Canada, a 120 mile 
maritime border, and then a number of miles of land border. In 
the last few years since September 11, and with the capture of 
Ahmed Rassum, who was trying to get into the United States and 
complete that famous bombing at LAX, there is a conjoining of 
the problems that we have with the northern border and what is 
happening down further South. But more often, when we think of 
terrorism and drug enforcement, we think of the southern 
border.
    I would like to hear what you have to say about how you 
cooperate among yourselves, what is the level, how many 
meetings do you have, how do you transmit information. And then 
also with the Canadian government, I would like to know whether 
you believe that we are moving along in a positive way in 
dealing with the Canadian government as we do both the anti-
drug and the counter-terrorism responsibilities.
    Mr. Bonner. Let me just say one thing, and I will try to be 
brief on this. One of the main mechanisms that we have to 
coordinate, particularly on the northern border--and let me say 
parenthetically, there are some significant amounts of illegal 
drugs that are coming across from Canada into the United 
States. This is primarily high potency THC content, but there 
is significant seizures that we are making at or near the 
Canadian border. But the mechanism for coordination at the 
northern border actually is a very good one. It is the IBETS, 
or Integrated Border Enforcement Teams, and the IBETS are made 
up of not only Customs and Border Protection through the Border 
Patrol, but ICE, DEA, as well as the RCMP, and the Canadian 
Border Security Agency. There are 14 of these along the 
northern border. There is one actually that started in British 
Columbia in the State of Washington. But there are now 14 of 
them that string the entire northern border. They work very 
effectively to exchange information and also to coordinate 
joint anti-smuggling interdiction and enforcement actions. And 
as I say, all of the U.S. Government agencies of note here 
participate in this with the Canadians. It is a very effective 
coordination mechanism that is specifically, for the most part, 
dealing with smuggling issues, and a lot of that is drug 
smuggling.
    Mr. Garcia. Just to followup quickly, if I might, on that 
very point. I actually was in Washington State fairly recently 
and had an opportunity to visit the facility. I walked through 
it and I saw Canadian officials sitting there working side-by-
side with American analysts, U.S. law enforcement, looking at 
data, analyzing it, looking at trends. In fact, they were I 
think working on an alien smuggling case particularly when I 
went through there and were communicating that information with 
a Border Patrol team that had actually seen some of the actual 
activity of this organization on the border very recently near 
where this facility was located. So I got to see really first-
hand how the organization Rob is describing works, and I was 
really struck by the fact that we had Canadian counterparts 
sitting there side-by-side with access to their information and 
their systems, sharing it with us. I thought that was very much 
of progress, especially given the risk you cite, the Rassum 
case, I remember it well, as I know Commissioner Bonner does, 
and the very real threat that posed to national security.
    Ms. Dunn. And what about among yourselves, how do you share 
information, how do you work together?
    Admiral Collins. It is done at the tactical level, 
operational level, and the strategic level. At the Washington 
level, for example, there is a weekly operations policy meeting 
within BTS, the Coast Guard attends that, we compare notes at 
the strategic level on how we move forward. There is 
coordination at the field level as well. A great example of 
that I think is in Florida, it is just terrific cooperation, 
which is one of the most threat-ridden vectors, if you will, in 
our country from whether it is migrants, whether it is drugs, 
or whatever. There is terrific planning, coordination. It 
happens all the time. On the air side particularly, the air 
folks from ICE and the air folks from the Coast Guard do 
scheduling meetings, they work collaboratively together to 
schedule deployments. And it played out very, very positively 
in the last Haitian crisis, for example, on the migrant side. 
But it also applies on the drug side. So I think there has been 
very, very positive, cooperative action. And every week there 
is multiple cases that happen where it is ICE participation, 
Border Patrol participation, Coast Guard participation that is 
yielding great results, whether it is a migrant interdiction or 
a drug interdiction.
    Mr. Bonner. Could I put a quick word in for the 
Interdiction Committee which meets in Washington on a monthly 
basis? It is something I chair, but Mr. Mackin has been a 
tremendous participant in it. He basically helps suggest the 
agenda for it. But this is a pretty high level, Washington 
level meeting, which is essentially the Interdiction Committee, 
and it has the high level Coast Guard representatives, ICE, 
DEA, Roger Mackin, me, I chair these meetings. We meet monthly 
and we do exchange information about what is going on at a 
pretty high level and discuss issues such as what strategy 
improvements could we make in terms of, let us say, a Mexico 
strategy to do a better job interdicting drugs that are moving 
up through Mexico.
    Ms. Dunn. Yes?
    Mr. Mackin. Well, first, I have personal interaction with 
these gentlemen and with some of their superiors on a weekly to 
monthly basis depending on the nature of the relationship. But 
more than that, they have been very generous in providing 
liaison officers to my staff. And so as issues come up perhaps 
discussing shortages of resource at certain areas, we will 
convene a meeting and these will be representing those 
organizations in carrying the information back, or if I have 
questions I get immediate response through them. Each of these 
organizations has one or more people on my staff. It has been 
very helpful.
    We attend the staff meetings, by-in-large, on a weekly 
basis, and that gives venue to talk about issues that we have 
worked in a our daily activities. I might say to Admiral 
Collins, were you aware of such and such, or he will say that 
to me, and then it often triggers actions for our staffs to 
convey information and develop ideas and solve problems.
    Ms. Dunn. Thank you.
    Mr. Souder. Thank you. I want to make sure the record shows 
that Ms. Christensen and Ms. Sheila Jackson-Lee have both 
joined the hearing, and they are both on the Homeland Security 
Committee.
    We have three votes on, of which we have roughly about 7 
minutes in this first vote, then two 5 minutes. Are all of you 
able to stay if we get back here in 20 minutes or so, so we can 
continue the questioning?
    And is it OK if we go vote, or would you rather start your 
questioning?
    Ms. Norton. I think if only 7 minutes, I will defer.
    Mr. Souder. OK. With that, the subcommittee stands in 
recess.
    [Recess.]
    Mr. Souder. The subcommittee will come to order.
    I now yield to Ms. Norton for her questions.
    Ms. Norton. Thank you, Mr. Chairman. The witnesses have at 
least comforted me in their testimony, because I believe all of 
them testified to increased confiscations and seizures. And 
since I can only judge this in some respects by the bottom 
line, I appreciate that is happening.
    I suppose Mr. Bonner's testimony leads to this question, 
because I appreciate the way in which your testimony at Page 7 
indicated where improvements need to be. It is very good to see 
witnesses testify about what they have done, that is clearly 
what you are supposed to do and what everybody always does, but 
also about what you are trying to do.
    My question really goes to whether or not there has been 
any change in the methodology. Commissioner Bonner talks about 
``cold'' hits because you are aware of their methods for 
concealing, and of course cold hits amount to something close 
to random along with a little sense, yes, it is called 
intelligence, of how they operate. But Mr. Bonner's testimony 
at Page 7 does understand that we are in a new world where the 
kind of intelligence we are applying to terrorism ought to be 
applied to narcoterrorism as well. You say that you do get 
actionable intelligence, but ``would greatly benefit, and drug 
interdiction would increase nationally, if the flow of 
potential actionable information and intelligence from 
investigative and intelligence agencies to CBP were greater.'' 
That is what I want to ask you about.
    Since the new connections have been set up through the 
Department of Homeland Security, is there any reliance on 
intelligence, as that word is used, as opposed to the old way 
of interdicting narcotics through ``cold'' hits, random hits? 
What I am looking for is whether or not it is true that when 
one is looking for WMDs one might find drugs, or when one is 
looking for drugs one might find WMDs. In the ports, for 
example, you could conceal all kinds of things, all kinds of 
bioterrorism and so forth, and if they have not already 
discovered this, then they certainly are going to discover that 
not only can we make money through narcoterrorism, these folks 
will be looking for drugs, we will not put any drugs in here, 
we will put some WMDs, so they will not even bother with this. 
What I am trying to ask, therefore, is whether your own work in 
narcotics detection has truly penetrated the kind of 
intelligence we are doing I understand routinely now for 
terrorism?
    Mr. Bonner. Thank you, Ms. Norton. Let me say that you are 
right, that part of what you do at the border in terms of 
interdicting and intercepting drugs and people smuggling them 
is you do look at patterns and trends. We also, of course, are 
aided by drug-sniffing canines at our land borders and our 
international airports. We are aided by other kinds of 
detection equipment. But one of the things we are doing, too, 
with respect to let us say the terrorist threat, is we are 
taking a look at and getting advance information on all cargo 
shipments coming into the United States, through all modes, by 
the way, commercial trucks, sea containers, it does not matter. 
And part of what we are doing is using strategic intelligence 
to try to figure out better who and what to look for and what 
to look at for all threats.
    One quick example: part of that is anomaly analysis. An 
anomaly analysis is something that is out of the ordinary. That 
could be a terrorist weapon, it could be drugs, it could be 
something else. A quick example: not too long ago we had a 
shipment of cargo that was coming into a West Coast seaport 
that was manifested by advance manifest information as frozen 
trout and it was being shipped actually to another location 
through a U.S. seaport on the West Coast. There was an anomaly 
there. One is, it is a little unusual that frozen trout is 
coming from Asia that ultimately was going to Central America. 
It was anomalous. But second, there were some other anomalies 
about it, and that was it was not being shipped in a 
refrigerated container. So, OK, we definitely are going to look 
in that container. Now it was not a weapon of mass destruction. 
It was not illegal drugs. It was a cache of a large amount of 
automatic weapons that was going to Central America. But I am 
just saying this same methodology, the same approach that is 
helpful in terms of selecting out the let us say cargo 
shipments that we are going to x-ray scan and that sort of 
thing is helpful for the illegal drug threat.
    But beyond that, I would just echo what Mr. Mackin said, 
and that is, that we can do better. The more intelligence or 
information we get at the border, let us say the land border 
with Mexico, if we have enough, we can double the number of 
seizures at the Mexican border. That is not the ``be all and 
end all'' of a counter-drug strategy. But it is part of a 
strategy to seize as much of the illegal drugs produced as far 
back into the supply chain as we can, along with going after 
the drug money, along with going after and removing the major 
traffickers, the key players and organizations. But Mr. Mackin 
has suggested in his testimony, and I fully agree with it, that 
we ought to be looking at, maybe under the EPIC umbrella, but 
doing a better job of collating information, intelligence, 
whatever you want to call it, particularly for our border with 
Mexico, so that we are increasing our prospects, our 
visibility, and can increase what are some petty impressive 
drug seizures now, but even beyond, exponentially beyond what 
we are doing right now.
    Ms. Norton. Does the cross-training help the interchange of 
methodologies here, the cross-training of your personnel at the 
border?
    Mr. Bonner. Yes, it does. For example, when ``One Face at 
the Border'' is combining Agriculture inspectors with Customs 
inspectors and Immigration inspectors now as one CBP inspection 
work force, one of the things Agriculture inspectors, they have 
x-ray machines at most of the international airports and they 
are looking for organic material, they are mainly looking for 
fruits for med flies and that sort of thing, that is important, 
but we have trained them also to be looking for illegal drugs 
which are also organic material, cocaine and heroin. So we are 
getting synergies, too, by creating one unified border agency 
that is looking at all the missions and working more 
effectively and more efficiently toward all of the missions of 
Customs and Border Protection, at least the border agency, and 
that includes the interception of illegal drugs, which is a 
very important part of our overall mission.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Souder. Thank you. I want to pursue Ms. Norton's line 
of questioning for just a minute. Obviously, as you get the 
Vacasas and the x-ray equipment, that is something that can 
have a joint function. But to some degree, some of these things 
are mutually exclusive. At the border, if a bomb dog is 
checking a car, it is not a drug dog, and when you are looking 
at San Ysidro, El Paso, Laredo, these huge areas where we have 
so much traffic going across, just a minute delay causes 
absolute chaos because of long lines. And so not everything is 
able to be done jointly. But as we get more equipment, and 
probably the No. 1 important things are the actual training of 
your agents, in other words, they look at the vehicles, they 
look at the equipment, they look at the anomalies in the bills 
of lading, in the invoices, and to the degree that they are 
trained. Now one of the things that we are trying to address, 
and I mentioned it in my opening statement, is we are very 
concerned that narcotics does not seem to be in the long-term 
measurement. Now the people who have been trained in this area 
and who have worked with this long-term have already picked 
that up, and you have many experienced agents. The question is, 
what is being done in the Department of Homeland Security for 
people who are coming on board, for new people who are coming 
in, for some of the people maybe in Department of Agriculture 
who have not historically looked at narcotics, to train them, 
and how does the Department see that as being part of the 
review? Initially, as I am sure you are all aware, if we ever 
get a Homeland Security authorizing bill through, we are 
certainly looking at that and have huge bipartisan support of 
adding that, with the caveat of cooperation. We are not looking 
to see if we have this in this sub-agency, and we have this in 
this, cooperation should be part of that, too, but we want to 
see that as part of the personnel training evaluation.
    Mr. Bonner. We are cross-training all of our inspectional 
work force for the multitude of missions, it is not just one, 
but that certainly includes the anti-narcotic mission and 
detection. We are putting heavy emphasis, Chairman Souder, on 
essentially what I call targeting skills, and that is using 
advance information to target against threats.
    We actually learned what we are doing in the anti-terrorism 
area to better target essentially by virtue of things that were 
being done by legacy U.S. Customs through passenger analysis 
units at JFK, at Miami, and other international airports, and 
through what we call manifest review units, which are at all of 
our major seaports and our international airports for air 
cargo. The principles that we have taken for identifying 
terrorist risks are actually drawn from things that 
particularly legacy U.S. Customs was doing very, very well in 
terms of thinking about how do you, given the limited amount of 
time you have, how do you select what--what vehicles, what 
people, what cargo--we need to spend extra time with in 
secondary and do a fuller inspection, and making sure that we 
have the right array of technology and equipment to do that. 
But most of this technology and equipment, we are still working 
on canines, by the way, to get a canine that can detect both 
bombs and illegal drugs.
    Mr. Souder. That would be great.
    Mr. Bonner. We are working on that at Front Royal right 
now. But nonetheless, most of this stuff really is overlapping 
and I think it does overall improve our effectiveness against 
the drug threat.
    Mr. Souder. Do any of you have a response to the fact that 
we did a word search and could not find ``narcotics'' or 
``drugs'' or anything in the evaluation proposals?
    Mr. Bonner. Which proposals?
    Mr. Souder. The proposed personnel manuals for the 
Department that is 40 pages and had nothing----
    Mr. Bonner. The Human Resources design.
    Mr. Souder. Yes. Because, basically, anybody who has been 
in any Government agency or in the private sector knows that is 
the bottom line for a lot of employees. Am I being measured by 
something?
    Mr. Bonner. I do not know the answer to that.
    Mr. Souder. OK. I want to ask a couple of technical 
questions. If you want to get back, I am not looking for long 
answers, but I want to make sure that I have some understanding 
and that we understand on the record.
    Let me move first to Mr. Garcia. In the air and marine 
operations, you provide aerial support. The ICE pilots and 
aviation enforcement officers could lend aviation expertise to 
ongoing drug smuggling investigations. Have you converted all 
of your aviation personnel to 18.11 agent job series to enhance 
their anti-smuggling investigation capability, and if not, why 
not?
    Mr. Garcia. Currently, Chairman Souder, we are looking--let 
me just step back a little bit. Our Marine officers, our folks 
in AMO, go through the same 18.11 training course at FLETC that 
our special agents in the Office of Investigation do. What I 
have before me now is a proposal to convert the hundred-some-
odd Marine Enforcement Officers from their series as Marine 
Enforcement Officers to 18.11. I am looking at it. I think 
there is a lot of merit to that proposal. I was actually out 
with Marine Enforcement Officers in Miami not too long ago and 
they were telling me about a stop they made where the drugs 
were thrown overboard or whatever contraband they had, by the 
time they caught the boat, nothing on it, but the people on the 
boat were actually re-entering felons after deportation, which 
is a serious charge and they had turned them over to 
authorities, and how efficient it would be to have them with 
not only Customs but Immigration enforcement as we are training 
all of our agents. And I think there is much merit to that.
    The key issue for me, obviously, is coordination of those 
investigative resources with our Office of Investigations and 
looking at the plan for doing that so we are not going at 
cross-purposes, and you can see the merit in that. So I think 
it is a proposal that has much merit, and I am considering it 
right now.
    Mr. Souder. Thank you. Commissioner Bonner, a similar type 
question. It has come to our attention that you plan to create 
a new employee classification for the inspectors at ports of 
entry called 18.95 classification. Apparently, this will give 
the inspectors the authority to do investigations, including 
controlled deliveries after they make seizures. How are you 
going to ensure that this does not decrease the willingness of 
inspectors to call in ICE special agents to do this work?
    Mr. Bonner. First of all, I am not contemplating doing 
that. Next week we are going to convert all legacy Customs and 
Immigration inspectors to Customs and Border Protection 
Officers and they will have a new classification series. But we 
are doing that to unify and integrate the agency. At the 
current time, I contemplate we continue our historic relations 
with the special agents now at ICE for followup controlled 
deliveries from drug cases. And as I said in my earlier 
testimony, the Border Patrol actually has a relationship with 
DEA in terms of followup investigations. So we are an 
interdicting agency, we do not do followup investigation. We 
interdict the drugs and we make arrests of the people that are 
involved in smuggling them. But I do not contemplate at this 
time any change in terms of having CBP Officers do controlled 
deliveries. I am looking for Mr. Garcia's agents to do that for 
port of entry seizures, and DEA to do it with respect to 
between the ports of entry.
    Mr. Souder. When you and Mr. Garcia debate changes like you 
are debating in either of these that have a big impact on 
narcotics, do you discuss this with Mr. Mackin and alert him 
before so he can get a counternarcotics officer opinion?
    Mr. Bonner. Well, I would but I am not even discussing. I 
have not had any internal discussions in Customs and Border 
Protection at headquarters. If there is anything that we might 
talk about at some point, it would be what I call the bag and 
tag cases, which are cases that do not have any followup 
investigative potential because you cannot do a controlled 
delivery and the magnitude of the case does not warrant a 
criminal investigation. It is, basically, we have a truck 
driver and we have drugs, and we want to make sure that where a 
prosecution can occur, a prosecution occurs. But right now, ICE 
is handling that. And at least for the foreseeable future, 
until Mr. Garcia says he wants to do it some other way, that is 
the way it is going to be done. At some point I might talk to 
Mr. Garcia about whether there is a more efficient way to do 
some things, but I can tell you right now, in terms of followup 
investigations and controlled deliveries, that is a 18.11 
investigative agency function, and that is either ICE or DEA. 
It is not CBP.
    Mr. Souder. OK. My question was broader than that, but let 
me ask this specific to Mr. Garcia. On the 18.11, do you 
discuss with Mr. Mackin--I mean, the point here is that beyond 
whether you are individually committed, what he is supposed to 
be is a watchdog in the agency, that when there is a policy 
change that could affect counternarcotics, that he at least 
knows your internally debating it, not that he is informed at a 
meeting that it is done, because he is supposed to be making 
sure that function is not threatened, and, in fact, is 
expanded. That does not mean he is going to disagree. But it is 
an awkward position because we deliberately did not put him 
into a line control over your agencies because you know your 
subparts of the agency. But we need to know that he is in the 
middle of the decision process to at least watch that.
    Mr. Bonner. OK. But the premise is, you take my point 
here----
    Mr. Souder. Right. You are not changing, I understand that.
    Mr. Bonner. I think it would be a bad idea to have CBP 
Officers doing controlled----
    Mr. Souder. Right. On 18.65 I got the point. But it would 
be if you make other decisions related to narcotics. And in the 
18.11 decision, here is one that you said is moving forward. I 
just wondered whether his office has been consulted in that 
process.
    Mr. Garcia. Chairman Souder, a very good point. I am not 
sure, to be frank, on the 18.11 issue, with the hundred or so 
marine officers, if our offices have spoken. I have not spoken 
to Mr. Mackin. I can tell you that he is very much involved in 
discussions we have on our policy, on our working 
relationships, on MOUs or MOAs on arrangements we have both 
within the Department and outside the Department that I know he 
is personally involved in, and I thank him for that effort.
    Mr. Souder. Thank you. And let me pursue one other matter 
here, and this is for Commissioner Bonner, Admiral Collins, and 
Secretary Garcia. In the ICE, AMO, Border Patrol, Coast Guard, 
each of you have air and marine assets that they also have 
overlapping missions, particularly with respect to drug 
smuggling. It is part of all your missions. I am going to give 
you the series of four questions and then would like each of 
you to explain how you see your unique mission as far as air 
and water, what do you think the other two agencies' air and 
marine missions are and how they differ from your mission, and 
how you think we can make this more efficient. And we also 
understand the Department has commissioned a study by an 
outside consultant of air and marine programs.
    I would like to hear each of your reactions to this because 
this is, to some degree, where the rubber meets the road: How 
do we sort this through, how do you view each other, and how do 
we resolve this. Because drugs are not the only mission and it 
is not the only reason you have air and marine divisions, but 
to some degree it is a primary part of it.
    Ms. Jackson-Lee. Mr. Chairman, could I ask you to yield 
just for a moment?
    Mr. Souder. Yes. Do you want to do a statement?
    Ms. Jackson-Lee. Yes. If you would, I have a security 
briefing going and I came back--gentlemen, if you would indulge 
me--to support this hearing and to support what you are doing. 
I very much want to associate myself with the purpose of this 
hearing. We have travelled together and I hope the gentlemen 
understand this is not a critique that is without purpose or 
recognition of the good service that you do. I think in the 
backdrop of the September 11 report today that talks about 
collaboration and being able to singularly determine or have 
governance over the intelligence, it is equally important to 
recognize that smuggling drugs, aliens, or arms are, frankly, 
the same threat against terrorism or the same threat of 
terrorism. In addition, we know that narco terrorist 
organizations include the revolutionary armed forces of 
Colombia, the Islamic radical groups, and others.
    I would encourage this hearing to move forward on the idea 
of a singular person that coordinates and has standing in the 
Homeland Security Department. I hope that we will have an 
opportunity to work on this together, Mr. Chairman. I would 
just say to the fine witnesses, with whom I work with as the 
ranking member on the Immigration Claims Committee, we can be 
enhanced and better for it when we find a stronger voice inside 
the Homeland Security that coordinates some of these actions 
dealing with the smuggling of drugs, aliens, or arms, which 
will continue and will continue to be the fuel of terrorist 
acts around the world.
    Let me also ask unanimous consent to submit my entire 
statement into the record. And I would appreciate being able to 
submit the questions of the ranking member of the full 
committee, Mr. Turner, into the record as well. Both of us are 
off to a briefing and I apologize for having to depart. I thank 
the chairman for his indulgence and well as the chairman and 
the ranking member, Mr. Cummings, for this great work on this 
matter.
    [The prepared statement of Hon. Sheila Jackson-Lee 
follows:]

[GRAPHIC] [TIFF OMITTED] T9655.046

[GRAPHIC] [TIFF OMITTED] T9655.047

[GRAPHIC] [TIFF OMITTED] T9655.048

[GRAPHIC] [TIFF OMITTED] T9655.049

[GRAPHIC] [TIFF OMITTED] T9655.050

[GRAPHIC] [TIFF OMITTED] T9655.051

    Mr. Souder. Thank you very much. Without objection, the 
full statement will be inserted in the record, and the 
questions from you and Mr. Turner. I thank the gentlelady for 
her leadership and constant concern on the narcotics issue. It 
has been bipartisan and it is very important that we continue 
to do that.
    Ms. Jackson-Lee. Thank you.
    Mr. Souder. How about we go in the reverse direction. Mr. 
Garcia, do you want to start on these?
    Mr. Garcia. Yes. Chairman Souder, you are asking a question 
that gets to core competencies of what these various divisions 
do. I will perhaps speak on AMO and let the other gentlemen 
take a shot at giving their first description of their own 
programs.
    I think if you look at the AMO core competencies, you look 
at three different categories. You look at an air and marine 
law enforcement capability, and we were just talking about that 
with the 18.11, the training at FLETC and the investigative 
course work. You look at the tremendous equipment they have, 
the infrared cameras, for example, and I have seen them, I have 
been with the Air and Marine and had demonstrations, an ability 
to monitor, for example, a controlled delivery, to testify in 
court about a deal that was done and who was present and what 
happened and to present evidence as witnesses. A tremendous law 
enforcement capability. In my experience as a prosecutor and 
working in law enforcement in various agencies, it is a very 
unique and impressive capability.
    You have air and marine interdiction, detection, tracking, 
interception, marine vessels and aircraft engaged in smuggling 
illegal drugs, people, contraband, as the Congresswoman was 
just mentioning. We see that across smuggling organizational 
lines now and they do that within certain lanes and parameters, 
working with their counterparts represented here at the table.
    And air space security mission is the third mission. We see 
that most starkly here in the National Capital Region where AMO 
is responsible for maintaining that security zone. They have 
done that work in Olympics in Atlanta and in Salt Lake City, 
and at other special events like Presidential inaugurations.
    So I would divide it into those three we call core 
competencies of law enforcement interdiction and air space 
security as an AMO mission.
    Mr. Souder. Admiral Collins.
    Admiral Collins. We have quite a substantial air arm, as 
you know, Mr. Chairman, over 211 major aircraft, rotary wing an 
fixed wing, C-130 is the heart of our fixed wing fleet, and we 
have several classes of helicopters, and we also have a medium 
endurance jet. They service all our wide range of missions, 
from requirement for surveillance for fish, migrants, drugs, 
and other things as far flung as the Bering Sea and the deep 
Caribbean and the Western Pacific. So our venue is very, very 
wide. It goes all the way to China and back, all the way to 
Guam and back. It provides surveillance capabilities, strategic 
lift capability, I think we are the primary strategic lift with 
our C-130's for the Department, so moving rapid response teams, 
security teams and so forth from FEMA, from us, from others is 
through the C-130's. They also are equipped with fairly 
significant surveillance equipment. Of course, the other unique 
part about our air arm is they are the primary rescue and 
recovery of vehicles for our search and rescue mission and I 
think the world's preeminent search and rescue organization. We 
save over 4,000 to 5,000 lives a year in the United States 
through this. And you have to look at the aircraft types. Some 
very different capabilities embedded in our aircraft than you 
will find in other aircraft. So it is not just to say they have 
a fleet. We have a fleet, it is a fleet with a particular set 
of competencies, a certain set of capabilities, reach, and a 
whole host of other things that are built in to service the 
particular mission set that we have.
    There is very, very I think close collaboration on the use 
of those fleets. There is no duplication when it comes to use 
of aircraft for the counter-drug mission. We can use every 
single aircraft hour we can get. It is the long pole in the 
tent, Mr. Chairman, in terms of servicing the counter-drug 
mission. And we are doing that collaboratively. The integrating 
mechanism for the two fleets is JIATF-South, quite frankly, in 
terms of that southern vector, integrating these resources, 
applying them to the best part of the mission. Clearly, ICE's 
aircraft are very, very focused and very, very productive into 
air bridge denial, but they are also involved in our at-sea in 
surveillance, as we are. But we need both of those 
competencies, both of those capabilities to do the job, and 
they are coordinated, again, through that integrating 
mechanism.
    We are also looking at enterprise-wide systems in the 
Department. What I mean by that is how we acquire them, which 
ones we acquire, how we vet the requirement. We have an 
organizational entity called the Air Council that is looking at 
these issues, logistics, mission assignment, and a whole host 
of other things to acquire and support aircraft. That is 
actively looking at these things as we speak.
    There is a Commodity Council on how we buy particular 
equipment, and can we leverage economies of scale. There is an 
example where the Border Patrol has bought off a small boat 
contract, we have over 1,800 small boats in the Coast Guard 
around the country. We have an existing contract with a very, 
very capable boat company, it happens to be from a company 
called Safe Boat in Puget Sound, that the Border Patrol has 
bought off.
    So we are looking at are there synergies, whether it is 
procurement, whether it is maintenance, whether it is 
deployment, in how do we integrate these things together. And 
we have a lot of things in motion to look very, very aggressive 
like that. I think it is a very positive development and I 
think we will find efficiencies both in deployment, 
maintenance, and everything else across the Department as we 
manage these in a non-redundant but complimentary way. And that 
is the focus, integrated operations.
    Mr. Souder. Mr. Bonner.
    Mr. Bonner. Well, it is an excellent question. Let me just 
say I am in the unusual position of having seen, as 
Commissioner of Customs, to have overseen the very fine work of 
AMO, which was the air and marine interdiction division which 
was part of our Office of Investigation at legacy Customs. So I 
am very familiar with the good work that is done by the air and 
marine assets that are now over in ICE. It was kind of like 
ships passing in the night because, as a result of this 
reorganization, of course, the Border Patrol became part of 
Customs and Border Protection and the Border Patrol has air 
assets and it has a few small what I would call brown water 
assets that are important at the St. Lawrence and other 
locations.
    There are 116 Border Patrol aircraft in the Border Patrol 
fleet, about 78 or 80 of those are rotors. These tend to be 
very tactically, operationally driven use of air assets that is 
directly related to the border control mission, which is both 
the interception of illegal people that are illegally coming 
into the United States, and the interception of illegal drugs 
that are moving across the border, particularly the Mexican 
border, into the United States. They are, by the way, far and 
away the most efficient use of air assets in terms of per hour 
air time of any of the air assets of the Federal Government, 
and I include DEA, and I am very familiar with DEA's air 
assets. But by that I mean, for every air hour flown by a 
Border Patrol aircraft, there are three apprehensions that are 
directly related to that aircraft, on average, and a 
significant amount of illegal drugs that have moved across our 
borders. In fact, when you think of the drive-throughs, and 
this is illegal drugs down in Arizona and other places, but I 
mean loads that are literally being driven through the border, 
the only way the Border Patrol actually can successfully 
interdict is to have air assets that can follow and get onto 
those vehicles.
    So Border Patrol uses its assets. I think the Commandant is 
right that there are some unique assets that are specifically 
related to this mission. But let me add that we put together, 
actually under the Border and Transportation Security Division 
of the Department, the Arizona Border Control Initiative. This 
is something we started about mid-March. It is led by the 
Border Patrol but it is multi-agency. The ICE participates in 
it in a number of different ways but part of it is adding to 
the 14 helicopters that we have deployed in essentially the 
Arizona sector, this is the Tucson sector that we are trying to 
take control over right now, the air and marine assets. We have 
coordinated that. They have contributed significant assets 
including the use of Blackhawks to assist moving teams of 
Border Patrol agents so apprehensions can be made, and this is 
both illegal migration but it is also drug smuggling. So we are 
coordinating on it.
    But on the other hand, I would say that, sort of looking at 
it from the point of view of trying to control the physical 
border, these air assets that Border Patrol has are incredibly 
important. The one thing we do not have at Border Patrol is we 
do not have assets that can go and interdict what I would call 
well beyond the border. These are the Air and Marine, former 
Customs air and marine P-3s, the Cessna Citations that over-fly 
Mexico as part of Operation HALCON, very successful, by the 
way. So from Border Patrol's point of view, we are not out 
there in terms of the Caribbean and the East Pacific and over 
Mexico. That is Air and Marine, because it has extended border 
assets to do interdiction work, and that is the Coast Guard, 
which has some significant assets that are out there doing 
interdiction work. So we do not really overlap with that area, 
that theater in terms of Border Patrol assets. I hope that is 
helpful.
    Mr. Souder. Thank you. Let me make a brief comment and then 
I am going to yield to Chairman Camp for anything he wants to 
cover here. You also, by each kind of defining who you were, 
kind of defined some of your differences. I think it is 
important as we move forward to continue to work to resolve 
this. As we have looked at some amendments in the Homeland 
Security bill, and as I wound up talking and trying to work 
through kind of the difficulties of having so many authorizers 
and how we work through this process, and getting support of 
Mr. Sensenbrenner and talking to Don Young, who have very 
strong opinions about the Department of Homeland Security 
Select Committee but at the same time understand that there are 
multi tasks, that we are going to have to figure out how we 
integrate the tasks that are clearly homeland security-related 
and the other tasks in the Department which may or may not be 
homeland security related.
    The Coast Guard is a classic example of that because 
fisheries and search and rescue are really more dominant in the 
mission than homeland security and narcotics have been. It is 
not that they are not important, and port security, for 
example, is a huge part of that. But there is no question that 
when I have been briefed at the different regional places that 
the bulk of the Coast Guard points are going to have, depending 
on the location--for example, on Lake Michigan and in the mid-
West, you are going to have one set; if it is in Alaska, you 
are going to have another set; if it is on the Texas-East 
Coast, you are going to have another set. But you have multi 
task missions that we have to sort out and most of those, with 
the exception certainly of the Caribbean, most of the Coast 
Guard missions tend to be more toward the border. And I will 
let you rebut that point or add to it in a minute. Whereas in 
the Border Patrol, clearly, while there might be some 
fungibility inland, as you have clearly stated, you are pretty 
much, in addition, to interdict right at the border--on the Rio 
Grande with the boats--you are pretty much an addition and a 
discouragement. And the goal is immigration, which is a 
terrorist function potentially as well as an immigration 
function, and a narcotics function. But the usual thing, and 
this is what has been our continual discussion about Shadow 
Wolves, is whether we should have a similar thing on the North 
border. And the AMO division of the Department of Homeland 
Security has historically had tasks that do not fit the box. In 
other words, they go both directions. They go this way from the 
border, and they go this way from the border. Certainly, by the 
way, I just want to say for the record, Mr. Bonner, I agree 
with you that the Border Patrol cannot be like a picket fence, 
only that you have to have some back checkpoints like up in New 
York State or in Arizona or in California and have to have the 
ability to enforce it, otherwise once they get through it will 
take so long to follow through.
    Now with that concept I think in the Department of Homeland 
Security, if we are going to keep our narcotics function, that 
one way to address this, as long as there is adequate funding 
in the Department that we need to battle for, is that there are 
going to be some units that do not fit the traditional function 
that may even have narcotics and contraband as a primary 
function as opposed homeland security. I want to get your 
reactions.
    Admiral Collins, you have been chomping at the bit.
    Admiral Collins. Thank you, Mr. Chairman. I would just like 
to add just a little bit on the helicopter capability, in 
particular, about the range and the reach of those. Yes, we 
have helicopter stations in the Great Lakes, in Alaska, along 
the coastal regions, and certainly they have search and rescue 
responsibility in the coastal arena. But those same 
helicopters, those air stations provide deployers to all our 
ships. Most of our ships are helicopter-equipped ships, they 
have a helicopter deck, they deploy to the Caribbean, they 
deploy to the Western Pacific, they deploy to the Bering Sea, 
they carry helicopters. Helicopters give them reach, give them 
surveillance capability for law enforcement, particularly for 
counter-drugs.
    We also have I think incredible capability. It has turned 
around the seizure rate for us. That is the reason why. And if 
you plot it, you plot it over time and you see huge spike in 
the growth of our seizure rate, it has everything to do with 
those airborne capabilities. Use of force from helicopters, the 
HITRON squadron based out of Jacksonville, eight helicopters 
that have machine gun and laser-guided sniper rifle capability 
that can stop go-fast. We have all our arrests at sea, a great 
deal of our seizures are a result of that activity. They are 
the arrestees that go to Panama Express. They are the arrestees 
that give us all our information. They are the arrestees that 
give us the indictment and extradition out of Colombia. This is 
the enabler for the drug war. And our next step is to embed 
that capability organically in every helicopter in the U.S. 
Coast Guard so it is not just the HITRON helicopters. We will 
have security zone enforcement, vessel escorts in and out of 
ports, and a whole hosts of other things. So it is both 
homeland security, law enforcement, and counter-drug effort of 
great import to this Nation. And we have special dispensation 
with the Justice Department to use Use of Force in domestic 
airspace.
    So I think it is a potent force for our country and the one 
that we can offer. So I just wanted to add that clarity to the 
reach and the focus of that fleet.
    Mr. Souder. I will let each comment. Mr. Garcia, then Mr. 
Mackin.
    Mr. Garcia. Thank you, Mr. Chairman. You make very good 
points in terms of where are we, where does that border end. 
And it has to be somewhat fluid because we have to treat it as 
the most effective way that we can address the threat that we 
have all been talking about here today. It is difficult when 
you are looking at it that way, as the border is fluid and our 
response must be, and how do you put a particular asset in a 
particular box. Some judgment has to be exercised, a call has 
to be made, and then you have to show flexibility in how you 
use the asset, in how Air and Marine, or the Coast Guard, or 
Commissioner Bonner's assets work with the other assets, how we 
support each other, and Commissioner Bonner gave the example in 
Arizona. We always look for efficiencies. Admiral Collins 
mentioned procurement, we also have purchased off the Safe Boat 
contract as well, how do we save money, how do we order, how do 
we procure materials for these units, and always looking at can 
we do it more efficiently. BTS I know right now has a group 
going that is looking at the air assets particularly, and where 
they are, how are we using them, and is that the best structure 
for it.
    I know there has been interest here and in other places in 
Congress about the same issues. And we balance that also with 
the fact that we have gone through a period of tremendous 
reorganization and upheaval already. People are being asked to 
do really incredibly difficult and important work out there and 
they want to know with some certainty where they are and what 
they are doing in the mission.
    So, we would never say we do not want to change, because 
change can be a very good thing. But we balance that against 
the fact that we have gone through many changes in the last 16 
months or 18 months or so. I can assure you that analysis is 
constantly going on at every level I just described. And I can 
say that, having worked with the people here at the table, they 
are also committed to looking at those assets and using them in 
the most efficient way and considering them as national assets 
in doing the work that you describe.
    Mr. Souder. Mr. Mackin.
    Mr. Mackin. Mr. Souder, just a brief comment to endorse 
Admiral Collins' discussion of the Use of Force helicopters. 
They are integral. He has done a marvelous thing in creating 
them and sustaining them and now he is embarking on doing that 
for all of the helicopters. That will greatly increase the 
interdiction capability of our forces both in Caribbean and the 
Eastern Pacific. And so I applaud that. And in thoughts for the 
future, any aid that you can give him to move that faster is 
certainly appropriate. Thank you.
    Mr. Souder. Thank you.
    Mr. Bonner. Just a very short comment, and that is that 
looking at it from the perspective let us say of the land 
border, and particularly Mexico where most illegal drugs, at 
least the vast majority, are coming through, I think it is a 
truism, Mr. Chairman, to say that smuggling is smuggling is 
smuggling, and it does not really matter whether it is people 
being smuggled, whether it is drugs, or whether it is 
terrorists. The reality is you need air assets to be effective, 
to have the mobility that we need to be able to track down, 
intercept, and interdict.
    Mr. Souder. Thank you. Chairman Camp.
    Mr. Camp. Thank you, Mr. Chairman. I just have a couple of 
mission-specific questions. Mr. Garcia, the Office of Air and 
Marine Operations is expanding their presence on the northern 
border and also in our own National Capital Region. And with 
slightly over 1,000 people, how have these activities impacted 
AMO's ability to provide counternarcotics support to ICE and 
Customs and Border Protection?
    Mr. Garcia. You are correct, we are increasing the presence 
on the northern border. Everybody has realized that risk. We 
discussed the Rassum case earlier, a particular example of the 
risk. To date, Mr. Chairman, as we have increased the presence, 
it has been very gradual. In fact, I visited the station that 
we are building up in Washington, I know there is one scheduled 
in upstate New York that is actually going forward there, we 
have detailed personnel in, we are in the process of hiring, 
and have hired for those stations particularly. So in 
discussing that very issue with Air and Marine, they have not 
seen a decrease either in their effectiveness on the Southwest 
border or in their ability to support other Federal agencies 
such as CBP.
    Mr. Camp. Admiral Collins, the Coast Guard has an increased 
U.S. presence in U.S. ports, which is a new mission, basically, 
in many ways. How has this impacted the Coast Guard's ability 
to conduct surveillance and search for narcotics vessels?
    Admiral Collins. It is not a new mission. We have had the 
mission since 1790. We were created as a law enforcement 
agency, by the way, by Alexander Hamilton. So it is not a new 
mission. It is sort of taken off the back burner. We had 45,000 
people dedicated to port security during World War II, which is 
bigger than the entire U.S. Coast Guard today. So we have had 
that, it has just ebbed and flowed. It is taken from the back 
burner and put on the front burner and the flames are turned up 
a little bit now.
    You are right in saying that we have had to allocate 
resources to greater surveillance, both from a boat perspective 
and air perspective, in the ports of the United States, 
particularly during Orange condition. When that happens, we 
have pulled assets, clearly, there is less deploying 
helicopters with our ships, there is less fixed wing support 
deep in the Caribbean. And so it has had a resource impact. 
That is why I mentioned in my opening statement, Mr. Chairman, 
Chairmen, that it was a capability capacity thing to us was the 
key issues in terms of servicing the wide range of missions 
that the Nation needs.
    What is the good news is that we are capable of flexing 
back and forth very, very quickly and to mobilizing the surge 
into the highest risk at the time. And the other good news is 
we have doubled the effectiveness of the existing assets. Let 
me give just a couple of statistics. During the 1992 to 1996 
timeframe, we allocated 73,000 air hours to the drug mission 
and had an average seizure rate of 6 percent overall, overall, 
6 percent. In the year 2002 to 2003, we allocated 72,000 air 
hours to the drug mission and we have an average seizure rate 
of 13 percent. We have more than doubled the productivity of 
those aircraft. And that has a lot to do with using acute 
intelligence, international partnerships and coalitions, 
bilateral agreements with over 26 nations in the Caribbean and 
South America, and a host of other initiatives that we have put 
together to leverage the heck out of those assets.
    Could we do more if we had more assets? Absolutely. In the 
go-fast war, for example, we can document that during the last 
12 months that we forego about 55 tons of cocaine. We had hard 
intelligence and we had go-fast, but we did not have the 
surface asset or the HITRON helicopter to prosecute the 
intelligence. So we have intelligence-rich environment getting 
better, and better, and better at it in the interagency. We do 
not have the force structure capacity to handle all the 
intelligence.
    Mr. Camp. Commissioner Bonner, with the money flow in terms 
of drug trafficking, CRS has a report that in the Caribbean 
alone they estimate $3.3 billion is traced to the illegal drug 
industry. What programs does DHS have in place to track and 
disrupt that money flow, which is significant?
    Mr. Bonner. It is significant. Again, this is a coordinated 
effort. But from the CBP end of it, we have not only inbound 
authority, we have outbound authority to essentially search and 
question people going outbound or vehicles going outbound. And 
so we do seize a fair amount, I do not have the data right in 
front of me now, of outbound cash, most of which is drug money. 
This is money going across the Port of Laredo out to Mexico, 
and sometimes money going out to Canada and elsewhere that is 
mainly drug-related.
    But we do coordinate on this overall issue of how do you do 
this more effectively with ICE and with the special agents in 
ICE who have considerable, formidable expertise in terms of 
money laundering and drug money laundering. So we work in 
combination. Sometimes, by the way, ICE will suggest to us 
where we might be looking for outbound drug money, this is 
intelligence-cueing and that sort of thing, and we coordinate 
with them. Well, I do not want to go into another situation I 
was talking to Mr. Mackin about on the public record. But in 
any event, this is an important part of our responsibility in 
terms of seizing outbound currency and cash. Part of that, too, 
is sometimes homeland security-related because we have seized a 
very significant amount of outbound cash going to the Middle 
East, much of which was generated by drug trafficking activity. 
I am not saying it was going to terrorists, but I am saying 
that just by doing some targeting of outbound money that is 
leaving the United States either through our international 
airports or through our land border, it is an important part of 
how we view our overall responsibility and use of authorities 
to get after drug money laundering.
    Mr. Camp. Yes, Mr. Mackin.
    Mr. Mackin. Mr. Camp, I would like to point out that I 
spend quite a bit of my time working the outbound money issue 
with Mexico and with Colombia, I am working with my ICE 
colleagues who are experts in that area. I am helping to work 
with our Mexican colleagues there about investigating the leads 
that we can harvest in the United States and get them to help, 
because often the money is identifiable only after it gets down 
there you discover it has arrived, you did not know which car 
was bringing it over. So we are trying to work to improve their 
capability to work these issues with both ICE and with DEA. And 
with Colombia, the black market pesos exchange is a serious 
problem there and we have worked with them to develop a program 
where we can identify--I have to be careful how far I get into 
this--information that the Colombians can use to go after both 
businessmen and traffickers that are using this black market 
pesos exchange to their advantage.
    Mr. Garcia. Mr. Chairman, I think there is a success story 
in the paper today. Working in Colombia actually, we seized 
with a unit we work with down there 78 properties, the 
Colombians seized millions of dollars in value, showing that we 
are tracing the money into the source countries. So, progress 
on that front. In fact, using some of the new tools under the 
Patriot Act, the unlicensed money brokers, the bulk cash 
smuggling, authorities that have really made us a lot more 
effective in the money laundering area, and using our money 
laundering coordination center to deconflict and look at 
intelligence information on a money laundering front. So, an 
incredibly important part of what we all do here.
    Mr. Camp. Thank you. Thank you very much for your testimony 
today. It was a very good hearing. I appreciate your being here 
and all that you had to say. Thanks a lot, Mr. Chairman.
    Mr. Souder. Thank you. Congresswoman Kelly from the Banking 
Committee is just forming a financial terrorism working group 
with a number of us who are on committees from Homeland 
Security to Financial Services to Judiciary, and we are putting 
together a group of people who have been tracking this, because 
in Congress you all get hauled up for all kinds of things, so 
many kinds of committees, and we need to be talking more too.
    I have some additional written questions. It would be 
helpful if we can get answers in writing and we do not have to 
use up so much time. I very much appreciate your taking a long 
time this afternoon to do this. So maybe we can do it with 
written followup and we will not have to take so much of your 
time in the future.
    I appreciate all your leadership and long-time commitment. 
It is a very difficult time to try to figure out how to 
coordinate all these things and where the priorities are, and 
you need to keep working aggressively at it. As you are well 
aware, I am very concerned about the counternarcotics, what the 
role of Mr. Mackin is in the agency in a structural way, not 
him personally but his position; that we figure out how to work 
out the Air and Marine; we figure out how we are going deal 
with the challenges on the norther border as well as the 
southern border; how we make sure that if we get in a period 
where we have 3 months of sustained Orange that we do not lose 
the narcotics war by having everything pulled in tight and that 
we have some units that are still able to support DEA and some 
of the other narcotics agents who have that as their primary 
mission.
    So we will look forward to continuing to work together. We 
appreciate your work.
    And with that, the subcommittee stands adjourned.
    [Whereupon, at 5:03 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [The prepared statements of Hon. Michael R. Turner and Hon. 
Joe Barton, and additional information submitted for the 
hearing record follows:]

[GRAPHIC] [TIFF OMITTED] T9655.052

[GRAPHIC] [TIFF OMITTED] T9655.053

[GRAPHIC] [TIFF OMITTED] T9655.054

[GRAPHIC] [TIFF OMITTED] T9655.055

[GRAPHIC] [TIFF OMITTED] T9655.056

[GRAPHIC] [TIFF OMITTED] T9655.057

[GRAPHIC] [TIFF OMITTED] T9655.058

[GRAPHIC] [TIFF OMITTED] T9655.059

[GRAPHIC] [TIFF OMITTED] T9655.060

[GRAPHIC] [TIFF OMITTED] T9655.061

[GRAPHIC] [TIFF OMITTED] T9655.062

[GRAPHIC] [TIFF OMITTED] T9655.063

[GRAPHIC] [TIFF OMITTED] T9655.064

[GRAPHIC] [TIFF OMITTED] T9655.065

[GRAPHIC] [TIFF OMITTED] T9655.066

[GRAPHIC] [TIFF OMITTED] T9655.067

[GRAPHIC] [TIFF OMITTED] T9655.068

[GRAPHIC] [TIFF OMITTED] T9655.069

[GRAPHIC] [TIFF OMITTED] T9655.070

[GRAPHIC] [TIFF OMITTED] T9655.071

[GRAPHIC] [TIFF OMITTED] T9655.072

[GRAPHIC] [TIFF OMITTED] T9655.073

[GRAPHIC] [TIFF OMITTED] T9655.074

[GRAPHIC] [TIFF OMITTED] T9655.075

[GRAPHIC] [TIFF OMITTED] T9655.076

[GRAPHIC] [TIFF OMITTED] T9655.077

[GRAPHIC] [TIFF OMITTED] T9655.078

[GRAPHIC] [TIFF OMITTED] T9655.079

[GRAPHIC] [TIFF OMITTED] T9655.080

[GRAPHIC] [TIFF OMITTED] T9655.081

[GRAPHIC] [TIFF OMITTED] T9655.082

[GRAPHIC] [TIFF OMITTED] T9655.083

[GRAPHIC] [TIFF OMITTED] T9655.084

[GRAPHIC] [TIFF OMITTED] T9655.085

[GRAPHIC] [TIFF OMITTED] T9655.086

[GRAPHIC] [TIFF OMITTED] T9655.087

[GRAPHIC] [TIFF OMITTED] T9655.088

[GRAPHIC] [TIFF OMITTED] T9655.089

[GRAPHIC] [TIFF OMITTED] T9655.090

[GRAPHIC] [TIFF OMITTED] T9655.091

[GRAPHIC] [TIFF OMITTED] T9655.092

[GRAPHIC] [TIFF OMITTED] T9655.093

[GRAPHIC] [TIFF OMITTED] T9655.094

[GRAPHIC] [TIFF OMITTED] T9655.095

[GRAPHIC] [TIFF OMITTED] T9655.096

[GRAPHIC] [TIFF OMITTED] T9655.097

[GRAPHIC] [TIFF OMITTED] T9655.098

[GRAPHIC] [TIFF OMITTED] T9655.099

[GRAPHIC] [TIFF OMITTED] T9655.100

[GRAPHIC] [TIFF OMITTED] T9655.101

[GRAPHIC] [TIFF OMITTED] T9655.102

[GRAPHIC] [TIFF OMITTED] T9655.103

[GRAPHIC] [TIFF OMITTED] T9655.104

[GRAPHIC] [TIFF OMITTED] T9655.105

[GRAPHIC] [TIFF OMITTED] T9655.106

[GRAPHIC] [TIFF OMITTED] T9655.107

[GRAPHIC] [TIFF OMITTED] T9655.108

[GRAPHIC] [TIFF OMITTED] T9655.109

[GRAPHIC] [TIFF OMITTED] T9655.110

                                 <all>

</pre></body></html>
